<html>
<title> - CRACKDOWN IN BELARUS: RESPONDING TO THE LUKASHENKO REGIME</title>
<body><pre>[Senate Hearing 112-54]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-54
 
                    CRACKDOWN IN BELARUS: RESPONDING
                        TO THE LUKASHENKO REGIME

=======================================================================



                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON EUROPEAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 27, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations


         Available via the World Wide Web: http://www.fdsys.gov




                  U.S. GOVERNMENT PRINTING OFFICE
67-797                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON EUROPEAN AFFAIRS        

            JEANNE SHAHEEN, New Hampshire, Chairman        

BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
ROBERT P. CASEY, Jr., Pennsylvania   JAMES E. RISCH, Idaho
JIM WEBB, Virginia                   BOB CORKER, Tennessee
RICHARD J. DURBIN, Illinois          JIM DeMINT, South Carolina

                              (ii)        



                            C O N T E N T S

                              ----------                              
                                                                   Page

Shaheen, Hon. Jeanne, U.S. Senator from New Hampshire, opening 
  statement......................................................     1
DeMint, Hon. Jim, U.S. Senator from South Carolina, opening 
  statement......................................................     2
Durbin, Hon. Richard , U.S. Senator from Illinois, statement.....     3
Gordon, Hon. Philip, Assistant Secretary of State for European 
  and Eurasian Affairs, Department of State, Washington, DC......     7
    Prepared statement...........................................     9
Koliada, Natalia, general director and cofounder, Belarus Free 
  Theatre, Minsk, Belarus........................................    33
    Prepared statement...........................................    38
Kramer, Hon. David, executive director, Freedom House, 
  Washington, DC.................................................    23
    Prepared statement...........................................    26
Melia, Thomas O., Deputy Assistant Secretary, Bureau of 
  Democracy, Human Rights, and Labor, Department of State, 
  Washington, DC.................................................    12
    Prepared statement...........................................    14
Wollack, Kenneth, president, National Democratic Institute, 
  Washington, DC.................................................    29
    Prepared statement...........................................    31

             Additional Statements Submitted for the Record

Lev Margolin, vice president, United Civil Party (UCP)...........    51
Yury Lavrentiev and Oleg Korban, ``Youth Democrats,'' United 
  Civil Party (UCP)..............................................    51
Dzianis Sadouski, the Belarusian Christian Democracy Party (BCD).    52

                                 (iii)



       CRACKDOWN IN BELARUS: RESPONDING TO THE LUKASHENKO REGIME

                              ----------                              


                       THURSDAY, JANUARY 27, 2011

                               U.S. Senate,
                  Subcommittee on European Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:18 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Jeanne 
Shaheen (chairman of the subcommittee) presiding.
    Present: Senators Shaheen, Risch, and DeMint.
    Also present: Senator Durbin.

           OPENING STATEMENT OF HON. JEANNE SHAHEEN,
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Shaheen. Good afternoon, everyone. Thank you all 
for coming.
    The Senate Foreign Relations Subcommittee on European 
Affairs is meeting today to discuss the brutal crackdown on the 
citizens of Belarus following last month's fraudulent 
Presidential election.
    I want to begin by thanking Chairman Kerry and Ranking 
Member Lugar for allowing us to go forward with this hearing 
while the full committee is still determining its agenda and 
structure and membership for the new session.
    Before we begin--and I am delighted that Senator Durbin is 
here and is going to be making a statement as well. But I want 
to make it clear that this subcommittee stands firmly behind 
Secretary Clinton and calls on the Lukashenko regime to release 
all political prisoners immediately and without preconditions. 
We remain committed to the principle that the Belarusian people 
be allowed to express their political will freely and without 
threat of harassment, imprisonment, or violence.
    The government's legacy of fraudulent elections has drawn 
the attention of the United States and our European partners, 
and the OSCE has repeatedly declared that the country's 
elections failed to be either free or fair. Violence against 
prodemocracy activists and arrests of political opponents have 
repeatedly revealed the nature of the cruel regime under 
President Aleksandr Lukashenko.
    The United States will continue to make one thing clear: 
The pursuit of democracy, freedom, and improved human rights in 
Belarus is in the interests of not only the Belarusian people 
but of the government itself. The recent violence perpetrated 
by the police against a peaceful rally of thousands of 
Belarusians, the arrests of several opposition candidates for 
President, and the crackdown on independent media and 
democratic forces show how far the cause of democracy has been 
set back in Belarus just in the last few weeks.
    However, the recent crackdown is not an isolated 
occurrence. Unfortunately, it is part of an appalling pattern 
of abuses. As the government's intimidation tactics have 
broadened, so has its abuse of its legal system to charge 
opposition forces and threaten them with years in prison. 
Independent democratic forces must be allowed to make their 
case without harassment and the OSCE mission in the country 
must be allowed to resume its work.
    In the days to come, the United States and our European 
allies will announce measures to respond to Lukashenko's 
tactics of intimidation. We should be clear that the pursuit of 
sanctions, asset freezes, and a ban on travel by the regime and 
those involved in the latest crackdown are intended to compel 
the government to treat its people fairly.
    I would like to commend the European Parliament for its 
resolution last week condemning the crackdown and its calls to 
resume measures urging the government to change course. The 
United States and Europe will stand together in support of the 
Belarusian people, and we encourage other nations, including 
Russia, to do the same. The immediate release of opposition 
candidates, party leaders, and civil society members must be 
the first step and should occur without delay.
    With these thoughts in mind, we are here today to discuss 
how the United States and Europe can ensure that the Government 
in Belarus lives up to its commitments to democracy and human 
rights. We will hear from members of the administration 
regarding the path forward and outside experts who have 
critical insights on the regime. I am delighted that we have 
two very knowledgeable panels here. Before I introduce them, I 
am going to ask Ranking Member DeMint if he would like to make 
a statement.

             OPENING STATEMENT OF HON. JIM DeMINT,
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. Thank you, Chairman Shaheen. Thank you for 
organizing this so quickly.
    I want to thank the witnesses who are here today and 
particularly Senator Durbin for taking a special interest and 
sharing his recent experiences to give us perspective.
    Europe and the United States share a common set of values 
and we have a long history that is founded on the ideas of 
freedom and economic opportunity. Today's hearing is important 
because Belarus is an exception to that. It remains isolated 
from Europe. Despite attempts to engage Lukashenko and his 
regime, often called ``the last dictator in Europe,'' respect 
for human rights and political freedom has continued to decline 
in Belarus. The most basic freedoms--freedom of speech, 
religion, and assembly--are restricted by authorities.
    The most recent reminder of this reality stems from last 
month's tragic post-election crackdown resulting in the 
detention of 700 people, including 7 of the 9 opposition 
candidates, the independent media, and civil society. Over 30 
of these individuals are still being held and the situation is 
not improving.
    The government's behavior is unacceptable in this day and 
age, and the regime must be held accountable for its actions. 
The United States and our allies in Europe have a 
responsibility not only to condemn its behavior, but to review 
the policy options at our disposal, including additional visa 
bans, asset freezes, and targeted sanctions.
    I look forward to hearing from both panels of witnesses 
today and to discussing the ongoing situation in Belarus and 
our options for a coordinated and strong response in greater 
detail.
    Thank you, Madam Chairman.
    Senator Shaheen. Thank you very much, Senator DeMint.
    Now we are delighted that Senator Durbin is here to share 
his recent experiences and his knowledge in this area.
    Thank you, Senator.

              STATEMENT OF HON. RICHARD J. DURBIN,
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Senator Shaheen, thank you very much. 
Senator DeMint, thanks for the kind words.
    I just had a chance over the break to take a trip and visit 
two countries in Europe that are neighbors, but what a 
contrast.
    The first country I visited was Lithuania, the land where 
my mother was born, a land which I have had a close attachment 
to emotionally and politically since I have been in public life 
and even before. And I was invited by the speaker of the 
Lithuanian Parliament to address them on the occasion of the 
20th anniversary of what is known as Bloody Sunday. Bloody 
Sunday was that moment in time when the Lithuanians had 
mustered the courage to step up and say we are breaking away 
from the Soviet Union. It was an amazing thing for them to do. 
This is a small country. They do not have any indigenous army. 
What they had was a determination to reclaim their freedom, and 
they voted to do so and Gorbachev was mad. So Gorbachev sent in 
the tanks and the paratroopers. They were not met with armed 
resistance because the Lithuanians had no arms. All they could 
do was to stand with their signs and demonstrate.
    I had gone there during this period of time and visited 
with what they call their Parliament, or Seimas, and the Seimas 
is a beautiful building but at that time was surrounded by 
sandbag barricades. And all of the people came to Vilnius and 
came to those barricades to show their unity with the effort to 
break away from the Soviet Union. Children would turn up from 
schools to say prayers and light candles and put little crosses 
next to the sandbags. And at one point they invited me in and 
said we want to show you secretly here the arsenal that we are 
gathering to fight the Soviets. Madam Chair, it consisted of 
about 10 rifles and guns that you would find in the home of a 
hunter or a farmer. No match for what Gorbachev sent in.
    Twenty years ago, he sent in the tanks, and they went to 
one of the prominent places right outside Vilnius, the TV 
tower. And there was this huge gathering and the tanks rolled 
in. At the end of 24 hours, 13 people were dead and 1,000 
people were injured. These people were not leading politicians. 
They were just common people in Lithuania who said we have had 
enough. We want to make our own future. We want to have a right 
to make our own decisions about our church and our press, the 
things we take for granted.
    So they invited me to speak to the Parliament and it was an 
inspiring moment for me. I do not know if it had any impact on 
them. But just to have that chance to be there.
    And I remembered that time because I thought at the time 
that the United States was too slow in acknowledging what they 
were trying to achieve and providing the support that they 
needed, the moral support they needed. And not to take away 
from any President or administration, because ultimately we did 
the right thing, but others went before us. They had the former 
Prime Minister of Iceland, the first country to step up and 
recognize Lithuania as an independent country, and he is a 
national hero, and he came and spoke there. Well, it was a 
great gathering and I was proud to be there for the time that I 
was.
    But then I took a little side trip. It is a 3-hour drive 
from Vilnius--this now capital of an independent, free, 
democratic country--to Minsk in Belarus, and it is such a trip 
back in history. In Belarus, they are led by an authoritarian 
figure, some call a dictator, Victor Lukashenko. I had met him 
a year before when our colleague, Ben Cardin, took a bipartisan 
Helsinki Commission trip to Minsk. So I have seen Lukashenko in 
his Presidential role.
    But this time I was not there to see him. I came there 
because we had heard the stories about what had happened after 
the election. The election, December 19, was monitored by 
international groups and many had serious questions afterward. 
Lukashenko's supporters said, well, the fact that he did not 
get 95 percent of the vote shows it was a fair election. He 
only had about 79 percent of the vote.
    But what happened the night after the election is what 
brought us to the point where we are today and the reason for 
my trip. There was a march of several blocks in the city of 
Minsk from one square to another by the opposition party 
leaders who were unhappy, feeling that they had been the 
victims of a rigged election. You know, this happens. People 
demonstrate in democracies and life goes on. It is an 
expression of their free speech and assembly that we take for 
granted. But at the end of that march, the police came in and 
arrested over 600, Senator DeMint--I do not know if it reached 
700, but over 600 of these political activists--and arrested 6 
of the 7 Presidential candidates who had run against 
Lukashenko. So not only did they lose the election, they threw 
them in jail. And today four of those Presidential candidates 
are still there.
    I had a chance to meet with the parties backing these 
candidates, and I might tell you just as an aside--and 
Secretary Gordon can add this. We have not had much of a 
presence in Belarus for a long time. They expelled our 
Ambassador. We are down to literally five Americans who are 
representing the United States of America under these 
circumstances. Michael Scanlan is their leader. I am not sure 
of his official title, but he is the leader of this effort and 
we should be thanking him and all that are with him for 
literally risking their lives in an oppressive culture trying 
to make sure there is a voice for democracy and representing 
the United States.
    Well, Mike Scanlan said, ``meet with the party leaders, but 
then I want you to meet with the families of the people who 
were in prison.'' If I can, if you will bear with me, I took--I 
did not take--Chris Homan on my staff was with me and took a 
few photographs of those who were there, and I would like to 
introduce them to you because I think each of their stories 
tells us more than anything that I can say.
    The first one was Svyatlana Lyabedzka. She is the wife of 
Anatol Lyabedzka, chairman of the United Civic Party. But 
Anatol has been regularly harassed, fined, and imprisoned for 
his political activities in 2004, severely beaten by 
Lukashenko's police force. His wife told me in tears that her 
husband had been taken to jail 26 days before. She had no 
information on charges or what had happened to him. She does 
not know where he is. She does not know what is happening.
    Tatsyana Sevyarynets is the mother of Paveal Sevyarynets, 
the head of Presidential candidate Vitala Rymashevski's 
campaign. He has already served several years in prison for 
protesting sham elections in Belarus. Tatsyana's letters have 
gone unanswered. Her complaints filed against the government 
have been ignored. She has been prevented from traveling. Her 
passport has been confiscated. She said it is impossible to 
find an explanation of what has been happening and my son has 
been persecuted for 16 years.
    Kanstantsin Sannikau and Ala Sannikava are the son and 
mother of a detained Presidential candidate, Anrey Sannikau. 
Ala told me she had no contact with her son for 14 days. This 
little boy has been the subject of a lot of news stories 
because what Lukashenko did was to imprison not only the mother 
but the father and then say that the state was going to take 
their little boy into custody. The grandmother was there 
begging and pleading that she be allowed to keep custody of 
this little boy. And just last week--or this week, I should 
say, they have announced that they are going to allow her to 
continue to keep custody of this little boy. But it shows the 
kind of pressure they are putting on these people.
    Meanwhile, they are systematically--the Belarusian KGB--
searching their homes, detaining them, harassing them, sending 
phone calls their way that are bogus alleging certain things, 
if they cooperate, will happen. It is the old Stalinist tactics 
that are still alive and well in Belarus. Incredibly what 
Lukashenko did was not only arrest the mother and father but 
basically to threaten the child.
    Milana Mikhalevich is a 34-year-old mother of two. I hope 
you get a chance to take a look at this lovely mom and her 
beautiful little girl. She is the wife of Ales Mikhalevich who 
was a Presidential candidate. Thirty-four years old, she has a 
10-year-old son and this beautiful little baby who was crawling 
all over us having fun while we were talking about whether she 
would ever see her father again, and that is literally what is 
at stake. The harassment that this young lady has been 
subjected to is incredible. She tried to go to Warsaw, Poland, 
to appeal for help. They stopped her. They would not let her 
take the train out. They confiscated her passport, and they 
continue to search her home and come at her regularly. When we 
tried to meet with some of these candidates, they said they 
cannot come because the KGB is coming by again today.
    It has been a total nightmare for her and her little 
daughter, Alena, who is barely 2 years old. As I said here, her 
mom wonders if she will ever see her father again. That is what 
these families are up against.
    Now, the surprise to me was they gave me a visa to visit 
Belarus and then said would you like to meet with Lukashenko. 
And I said under the circumstances, no, but I will meet with 
his Foreign Minister and we did, Sergei Martynov. Now, he has 
been an Ambassador to the United States. His English is 
flawless. And it was, as they say in diplomatic terms, a frank 
and candid meeting as I said to him, how can you claim to be a 
democracy and then turn around and arrest everybody who runs 
against your President. That is not what a democracy does. His 
response is classic, and I want to make sure I get it right. He 
said, Senator, you live in a country that has had democracy for 
200 years. We have only had it for 20 years. Give us credit. 
When we arrested all these people, including the people who ran 
against Lukashenko, we did not use tear gas. There were no 
rubber bullets and no police dogs. So give us credit. Think 
about that for a moment. I said to him you cannot pretend to be 
a democracy when the people who lose the election end up in 
prison. It is a disincentive to run against your President if 
this is what you are going to face.
    So we had the meetings and I gave these families my 
assurance that their story would be repeated, and I am glad you 
are holding this hearing for that purpose.
    Right now, the European Union and European Parliament are 
stepping forward. I have spoken to Secretary Clinton. You 
mentioned earlier a reference to her. We have got to be there.
    The reason I brought up the story of Lithuania is to put it 
in this context. Twenty years ago, the people who were killed 
and injured, the ones who had the courage to step out and 
demonstrate were just like these families. We applaud them 
today as defenders of freedom, heroes of their country, people 
who made a difference when you talk about this 21st century. 
People just like them in Belarus are struggling for the things 
that we take for granted and they are paying a heavy price. The 
United States cannot be silent. We have got to speak up for 
them.
    Thank you.
    Senator Shaheen. Thank you very much, Senator Durbin, for 
being here and for sharing the stories of those families.
    As I said earlier, we have two panels this afternoon. I am 
going to introduce all of the panelists at once. So while the 
first panel is coming forward, I will begin the introductions.
    Philip Gordon has served as Assistant Secretary of State 
for European and Eurasian Affairs since May 2009. He previously 
served as Director for European Affairs at the National 
Security Council and at the Brookings Institution.
    Thomas O. Melia--hopefully I pronounced that correctly--is 
Deputy Assistant Secretary of State in the Bureau of Democracy, 
Human Rights, and Labor and is responsible for Europe, South 
and Central Asia, and international labor rights. He has also 
held prominent posts at Freedom House and the National 
Democratic Institute.
    Our second panel, when it comes forward, will include David 
Kramer who serves as the executive director of Freedom House. 
He has had a distinguished career in Government and in the 
private sector, serving as Assistant Secretary of State for 
Democracy, Human Rights, and Labor and as Deputy Assistant 
Secretary of State for European and Eurasian Affairs.
    Also on the second panel is Ken Wollack who is president of 
the National Democratic Institute and has had a long career in 
foreign affairs which has included extensive travel in the 
region of Belarus and Eastern Europe supporting democratic 
elections and civil society. Under his leadership, NDI has 
strengthened its outreach to more than 70 countries to support 
democratic institutions, civic engagement, and political 
empowerment abroad.
    Our third panelist on that second panel--and again, I 
apologize if I do not get the name exactly correct--is Natalia 
Koliada. She is the general director and cofounder of the 
Belarus Free Theatre, a group that has shown enormous bravery 
in exercising its members' rights to free expression despite 
brutal repression. Just a few weeks ago, Ms. Koliada and other 
members of her company were detained in Belarus following the 
crackdown.
    We thank you all for your willingness to be here and to 
speak to the challenges that we face in Belarus.
    So I will begin with you, Secretary Gordon.

 STATEMENT OF HON. PHILIP GORDON, ASSISTANT SECRETARY OF STATE 
    FOR EUROPEAN AND EURASIAN AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Gordon. Thank you very much, Madam Chair and Ranking 
Member DeMint. Thank you for holding this hearing and for 
inviting me to discuss the situation in Belarus, and I would 
also like to thank you for your strong opening statements and 
very much appreciate the powerful message of Senator Durbin as 
well and his moving comments.
    We should all be concerned about the very disturbing recent 
events in Belarus and specifically the government's crackdown 
on the opposition, civil society, and independent media in the 
aftermath of the disputed Presidential election. This is a 
crucial moment and I am glad the Senate is focusing attention 
on the actions of the Belarusian Government. I welcome the 
opportunity to speak on how the U.S. Government is responding.
    As you noted, the United States has repeatedly condemned 
the actions taken on December 19 and the continuing suppression 
of political and human rights in Belarus. That this brutal 
crackdown occurred in the heart of Europe in the 21st century 
is particularly troubling. The international community must 
speak with one voice to support the democratic aspirations of 
the people of Belarus, and we are committed to doing our part.
    The Obama administration has continued a bipartisan policy 
of principled engagement with Belarus that centers on our 
consistent advocacy of democracy and human rights. Long before 
the recent crackdown, we were pressing for reforms that would 
allow space for civil society, independent media, and the 
political opposition to operate. I did this personally during 
my trip to Minsk in August 2009 when I made clear to the 
Belarusian Government that only steps toward democratic reform 
and respect for human rights could lead to better relations 
with the United States.
    Let me also take the opportunity to commend Senators Cardin 
and Durbin and Congressman Smith and others who have been 
consistently pressing for democracy and human rights in Belarus 
and who helped secure the release of the American citizen, 
Emmanuel Zeltser, in July 2009, just a month before I went to 
Minsk myself.
    Unfortunately, the failure of Belarus to respect human 
rights or uphold democratic standards is not a new development. 
In the aftermath of the flawed elections and the abuse of human 
rights in Belarus in 2006, the Bush administration first 
imposed sanctions against the Lukashenko Government and then 
expanded those sanctions in 2007 and 2008. Despite a release of 
political prisoners in August 2008 that led to the easing of 
some sanctions, Belarus continued to fail to implement 
democratic reforms.
    In the runup to the Presidential elections of December 19, 
2010, Belarus allowed in an OSCE monitoring mission and allowed 
nine opposition candidates to register to run against President 
Lukashenko. While voting was relatively uneventful, there were 
numerous irregularities.
    On the evening of December 19, between 20,000 and 40,000 
people rallied against the official claim of Mr. Lukashenko's 
overwhelming victory. The government's reaction was brutal, and 
its subsequent actions, the detection of a wide range of 
political activists, including five of the opposition 
Presidential candidates, raids on civil society groups and 
media outlets, and a refusal to renew the OSCE mission's 
mandate can only be interpreted as a campaign to crush the 
opposition and severely weaken civil society and independent 
media.
    The United States responded immediately to the situation in 
Belarus. Within hours, the White House issued a statement 
condemning the violence and calling for the release of all 
detainees. Secretary Clinton and EU High Representative 
Catherine Ashton subsequently issued two joint statements 
reiterating this message. On January 6, Secretary Clinton met 
with Belarusian and Belarusian-American activists to hear 
firsthand their personal stories about the election's 
aftermath. The group that Secretary Clinton met with included 
Natalia Koliada of Belarus Free Theatre, and we are very 
pleased to see that she will be testifying to this committee 
later this afternoon. It is important to hear her experience 
and stories.
    While publicly and privately urging that the detainees be 
released, the United States has been putting together a package 
of actions if the Government of Belarus does not change course. 
There are three specific sets of actions we are planning to 
make clear to the Belarusian Government the consequences of 
continuing its current course. We are examining additional 
sanctions against Belarus, providing assistance to opposition 
forces and independent civil society groups, and working 
closely with the EU to send a unified international message to 
the government.
    The specific steps we are taking include: One, the 
revocation of the general license authorizing U.S. persons to 
do business with the two subsidiaries of state-owned oil and 
chemical company Belneftekhim which first was issued in 
September 2008; two, an expansion of the list of Belarusian 
officials subject to a travel ban; and three, the imposing of 
additional financial sanctions against Belarusian individuals 
and entities.
    As we consider measures against the government, we are 
simultaneously planning to increase our support for the 
democratic actors and the victims of repression. Last year the 
United States provided $11 million in assistance toward 
supporting civil society, access to information and political 
competition, and providing opportunities for more interaction 
between Belarusian citizens and the outside world. In response 
to the recent events, we will increase such assistance by 
nearly 30 percent this year.
    Finally, we are working closely with our European Union 
partners to make sure that policy toward Belarus is coordinated 
to send the strongest and clearest message to the authorities 
in Minsk. The EU Foreign Affairs Council is scheduled to decide 
on additional measures with respect to Belarus on January 31. 
We plan to announce certain additional measures against the 
government on that day as well.
    In addition, a U.S. delegation will participate in a 
donor's conference in Poland on February 2 to assist 
nongovernmental actors in Belarus.
    Madam Chair, Senator DeMint, we have no illusions that 
persuading the Government of Belarus to adopt a course toward 
democracy and the rule of law will be easy or happen quickly. 
Our commitment to enhancing democracy and respect for human 
rights in Belarus is long-term and it will not weaken. I hope 
we can count on continuing bipartisan support for this 
approach. We must maintain a resolute stance both with respect 
to the government and support of those seeking a democratic 
Belarus. As Secretary Clinton and EU High Representative Ashton 
said in their joint statement on December 23, ``the Belarusian 
people deserve better.''
    Thank you very much.
    [The prepared statement of Mr. Gordon follows:]

              Prepared Statement of Hon. Philip H. Gordon

    Chairwoman Shaheen, Ranking Member DeMint, members of the 
committee, thank you very much for inviting me here today to discuss 
the situation in Belarus. We should all be concerned by the very 
disturbing recent events there, specifically the government's crackdown 
on the opposition, civil society, and independent media in the 
aftermath of the disputed Presidential election. This is a crucial 
moment, and I am glad the Senate is focusing attention on the actions 
of the Belarusian Government. I welcome the opportunity to speak with 
you today on how the U.S. Government is responding.
    Today, I would like to do three things. First, I would like to give 
you an overview of U.S. policy with respect to Belarus in recent years, 
which will provide a backdrop to the current situation and our policy 
response. Second, I would like to describe the actions that the United 
States has taken so far to respond to the repression in Belarus and to 
support free political competition, civil society, and the independence 
of media. Finally, I will also discuss possible next steps we, along 
with our European partners, can take to address the situation.
    The United States has repeatedly condemned the actions taken on 
December 19 and the continuing suppression of political and human 
rights in Belarus. That this crackdown occurred in the heart of Europe 
in the 21st century is particularly troubling. The international 
community must speak with one voice to support the democratic 
aspirations of the people of Belarus, and we are committed to doing our 
part.
                     backdrop to our current policy
    The Obama administration has continued a bipartisan policy of 
principled engagement with Belarus that centers on our consistent 
advocacy for democracy and human rights. Long before the recent 
crackdown, we were pressing for reforms that would allow space for 
civil society, independent media, and the political opposition to 
operate. I did so personally during my trip to Minsk in August 2009, 
when I made clear to the Belarusian Government that only steps toward 
democratic reform and respect for human rights could lead to better 
relations with the United States.
    Unfortunately, the failure of Belarus to respect human rights or 
uphold democratic standards is not a new development. In the aftermath 
of flawed elections and the abuse of human rights in Belarus in 2006, 
the Bush administration first imposed sanctions against the Lukashenka 
government. These sanctions included a travel ban and asset freeze on 
certain officials, followed in 2007 and 2008 by trade sanctions against 
the state-owned oil and chemical company, Belneftekhim. The Belarusian 
Government reacted in 2008 by asking that our Ambassador leave the 
country and requiring that we cut our Embassy staff in Minsk from 33 to 
5. The European Union imposed a travel ban and assets freeze of its own 
in 2006.
    In 2008, following the imposition of sanctions, the Belarusian 
Government released all of its political prisoners. Let me also take 
this opportunity to commend Senator Cardin, Senator Durbin, Congressman 
Smith, and others, who have been pressing for democracy and human 
rights in Belarus for many years, and who helped secure the release of 
American citizen Emmanuel Zeltser in July 2009. In recognition of the 
Belarusian Government's positive step in releasing political prisoners, 
the United States issued a general license temporarily authorizing U.S. 
persons to do business with two subsidiaries of Belneftekhim in 
September 2008. We told the government at the time that the United 
States would reciprocate if the government took further positive steps. 
Sanctions against Belarus--the visa ban and financial sanctions against 
selected officials and Belarusian entities--remained in place and were 
continued by the Obama administration. The EU suspended its travel ban, 
but it continued its assets freeze.
    In the runup to the Presidential elections of December 19, 2010, 
the United States and many other countries urged the Belarusian 
Government to take steps to improve its respect for human rights and 
democracy, including an invitation for an OSCE international monitoring 
mission to observe the elections. The government did allow the 
monitoring mission and allowed nine opposition candidates to register 
and to run against President Lukashenka. On balance, the campaign 
represented an improvement over the one in 2006, despite continuing 
problems. Voting was relatively uneventful. However, the government did 
not conduct a transparent vote count and did not allow opposition 
parties to monitor that count. The OSCE election observation team 
subsequently singled out this major factor in its criticism of the 
process, saying that counting of votes in nearly half of the 
constituencies was deemed ``bad or very bad.''
    The evening of December 19, between 20,000 and 40,000 people 
rallied against the official claim of Mr. Lukashenka's overwhelming 
victory. While we may never know all the facts of what happened that 
night, we know onething: the government's reaction was brutal, and its 
subsequent actions can only be interpreted as a campaign to crush the 
opposition and severely weaken civil society and independent media.
    Some 600-700 individuals were detained, initially including seven 
of the opposition candidates for President. Many of the protestors were 
sentenced to 5-15 days of detention without legal representation after 
hearings before a judge that often lasted less than 5 minutes.
    Five of the candidates, along with at least 32 others, however, now 
face charges that could lead to 15 years in prison if convicted. Twelve 
more remain suspects and may be charged. On January 11, Amnesty 
International declared 16 detainees ``prisoners of conscience,'' and 
urged the immediate and unconditional release of all detainees.
    However, this is not just about what happened the night of December 
19. In the wake of the protests, authorities have continued to raid 
homes and offices of activists and staff linked to the political 
opposition, civil society groups, including the Belarusian Helsinki 
Committee, and journalists.
    The government has refused to extend the mandate of the OSCE office 
in Minsk. This office must now close by March 31 unless Belarus 
reverses its decision, as we and other governments have urged it to do.
                the u.s. policy response and next steps
    The United States responded immediately and directly to the 
situation in Belarus. Hours after the initial detentions on December 
20, the White House issued a statement condemning the violence and 
calling on the government to release all detainees. On December 23, 
Secretary Clinton issued the first of two joint statements with EU High 
Representative Catherine Ashton calling the elections and their 
aftermath an unfortunate step backward and reiterating the call for the 
detainees' release. On January 6, Secretary Clinton met with Belarusian 
and Belarusian-American activists to hear firsthand from participants 
about the election aftermath and to emphasize our condemnation of the 
crackdown and discuss how we might help those facing the greatest 
pressure, including the detainees and their families.
    While publicly and privately urging that the detainees be released, 
the United States has been putting together a package of actions if the 
Government of Belarus does not change course, which now unfortunately 
appears to be the case. There are three specific sets of actions we are 
planning to make clear to the Belarusian Government the consequences of 
continuing on its current course: We are pursuing additional sanctions 
against Belarus; providing assistance to opposition forces and 
independent civil society groups; and working closely with the EU to 
send a unified international message to the government.
    The steps we are considering include: (1) the revocation of the 
general license authorizing U.S. persons to do business with the two 
subsidiaries of Belneftekhim that first was issued in September 2008; 
(2) an expansion of the list of Belarusian officials subject to the 
travel ban; and (3) imposing additional financial sanctions against 
Belarusian individuals and entities.
    As we consider measures against the government, we are 
simultaneously planning to increase our support for democratic actors 
and the victims of repression. Last year, the United States provided 
$11 million in assistance toward supporting civil society, access to 
information and political competition, and providing opportunities for 
more interaction between Belarusian citizens and the outside world. In 
response to recent events, we will increase such assistance by nearly 
30 percent this year. Our assistance includes support for human rights 
advocates, trade unions, youth and environment groups, business 
associations, and think tanks. We continue to support independent 
newspapers, Web sites, and electronic media operating in the country 
and broadcasting from Belarus's neighbors. In addition, we provide 
assistance to democratic political parties and movements to more 
effectively compete in this challenging environment.
    Finally, we are working closely with our European Union partners to 
make sure policy toward Belarus is coordinated, to send the strongest 
and clearest message to the authorities in Minsk. The Belarusian people 
seek to be part of Europe, and we wish to see the type of government in 
Belarus that can be part of Europe. The EU's Foreign Affairs Council is 
scheduled to decide on additional measures with respect to Belarus on 
January 31. To emphasize the strong transatlantic concern regarding the 
crackdown in Belarus, we plan to announce certain additional measures 
against the government on that day as well.
    On February 2, a U.S. delegation will join Europeans in a donors' 
conference in Warsaw to assist nongovernmental actors in Belarus. At 
that conference, which is being organized by the Polish Government, we 
plan to announce our proposed increases in assistance to Belarusian 
activists and encourage others to do likewise. The United States and 
our European partners both understand that even as we take steps 
affecting the Belarusian Government, we must do what we can to protect 
and foster the organs vital to any democracy: political competition, a 
vibrant civil society, and an active independent media that provides 
citizens greater access to information.
                               conclusion
    Madame Chairwoman, members of the subcommittee, we have no 
illusions that helping persuade Belarus to adopt a course toward 
democracy and the rule of law will either be easy or happen quickly. 
Our commitment to enhancing democracy and respect for human rights in 
Belarus is long-term and will not weaken. I hope we can count on 
continuing bipartisan support for this approach. We must maintain a 
resolute stance, both with respect to the government and in support of 
those seeking a democratic Belarus. As Secretary Clinton and EU High 
Representative Ashton said in their joint statement on December 23, 
``the Belarusian people deserve better.''
    With that, I look forward to your questions.

    Senator Shaheen. Thank you, Mr. Gordon.
    Mr. Melia.

   STATEMENT OF THOMAS O. MELIA, DEPUTY ASSISTANT SECRETARY, 
  BUREAU OF DEMOCRACY, HUMAN RIGHTS, AND LABOR, DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Mr. Melia. Thank you, Chairwoman Shaheen and Senator 
DeMint, for inviting me to join Assistant Secretary Gordon in 
this timely discussion. I would like to ask that the complete 
written statement I had prepared be submitted for the record, 
and I will just turn to some current observations from my 
recent visit.
    I returned on Tuesday, less than 48 hours ago, from Minsk 
where I went at the behest of Secretary Clinton to deliver a 
strong message to the government about the mounting outrage in 
the international community and the imminence of a sharp reply, 
which I did both in a face-to-face meeting at the foreign 
ministry with ashen-faced officials who realized that their 
hopes of rapprochement with the international community are 
going up in smoke before their very eyes and through the media 
with whom I spoke on several occasions. And also, I went to 
demonstrate the U.S. Government's support for the people of 
Belarus which I did by meeting with human rights activists, 
leaders of the political opposition, key figures in independent 
civil society, including the leader of the Democratic Trade 
Union Federation and the pastor of an independent evangelical 
church whose congregation is under bureaucratic siege from 
authorities that want to confiscate the plot of land on which 
they have built their church. I met also with independent 
journalists and, most importantly, with family members of those 
currently being held in custody by the regime. The families in 
particular, though anxious about their loved ones, were steely 
in their determination to continue to work for a democratic 
future for Belarus.
    I must say, having traveled widely in this region over the 
years but on my first visit to Belarus, that I was astonished 
at what I saw in a few days in this country. Since Aleksandr 
Lukashenko rose to power in 1994 as an independent candidate in 
what is widely considered to be Belarus' last democratic 
election, he has consolidated virtually all power into his own 
hands through a series of fraudulent referenda and elections 
and at the same time suppressing all forms of dissent sometimes 
quite brutally. In today's Belarus, civil liberties are sharply 
restricted in almost every way imaginable. The government 
controls citizens' access to information through near total 
domination of television and print media. And through a 
restrictive Internet law that entered into force last summer, 
July, authorities are working to extend that control even 
further.
    Belarusians live their lives under the ever-present eye of 
the KGB. Yes, it is still called the KGB in Belarus which 
employs wiretapping, video surveillance, and a network of 
informers to keep the public in line.
    I will refer to one particular provision of law that comes 
up again and again. Article 191 of the criminal code says that 
individuals who engage in activities on behalf of an 
organization that the government refuses to register face 
criminal prosecution with potential jail terms up to 3 years. 
In the present moment, this means that the families of the 
imprisoned have decided not to call themselves a committee for 
the defense of political prisoners because that alone would 
make them liable to prosecution and potential imprisonment for 
3 years for, ``operating an unregistered NGO.''
    Moreover, just to give you a flavor of daily life in 
Belarus, on a monthly basis for more than a decade, quiet 
vigils have been organized outside KGB headquarters to mourn 
those who have disappeared at the hands of the state, sometimes 
10 people, sometimes 100, holding photos of the disappeared. 
Frequently one or more of these individuals will be arrested on 
administrative charges and sentenced to 5 days or 2 weeks of 
detention. Virtually everyone with whom I met earlier this 
week, more than 50 people in different meetings, has been 
interrogated by the KGB in the last month for the supposed 
uprising the government alleges to have been planned for 
December 19 or has been in and out of jail on this ``catch and 
release'' program of continued harassment and incarceration.
    Belarus under Lukashenko has well and truly earned its 
designation by the economist intelligence unit as an 
authoritarian country and its place on the Freedom House list 
of the ``Worst of the Worst.''
    We will never know how the people of Belarus actually voted 
on December 19, though surely it was not the 80 percent for Mr. 
Lukashenko that he claims. It could have been as little as 50 
percent or less for all we know despite or because of the heavy 
hand of his regime. This week's events in Tunisia and across 
the Middle East remind us once again that apparently stable 
regimes are stable until they are not, and that means that men 
and women everywhere want to live in freedom. That is no less 
true in Belarus than in any of the other countries that we are 
looking at these days. We, in the United States, have supported 
the people of Belarus through the dark period of Lukashenko's 
rule and they know that and they welcome it.
    We, in the Department's Bureau for Democracy, Human Rights, 
and Labor, are proud to be part of America's diplomacy in this 
case and to contribute funds through grants to civil society 
and journalists in Belarus, and we look forward to working with 
you and the Congress to refine our policies going forward for 
Monday's announcements.
    Senator Shaheen, I would like to conclude with a word about 
the terrific, hardy band of Foreign Service professionals that 
I met in Minsk. Senator Durbin referred to Mike Scanlan. I 
would like to point out that under Assistant Secretary Gordon's 
direction, five men and women--count them--five diplomats--led 
by Mr. Scanlan are working around the clock in a place that 
should have at least 35 or more American diplomats to represent 
American interests and to demonstrate what American values 
really mean to people living under repression. Belarus is a 
place where good people know, despite the crude propaganda of 
the official media, that the United States is on the right side 
of history. This is done by the forthright principal policies 
we have shaped together here in the executive and legislative 
branches and it is especially due to the effective diplomacy 
being implemented every day by Mike Scanlan and his team in 
Minsk.
    If time permits, I would like to just provide today's 
update because even since I have been back in the last couple 
of days, people have asked if the regime is changing course, is 
responding to the imminence of sanctions and further isolation 
of the government. The overnight report from Mike Scanlan tells 
us that as of yesterday raids continue against civil society. 
Some of the groups I had met with earlier in the week had the 
KGB come in and confiscate their computers and their files and 
detain people twice in the last month. So just yesterday a 
particular political party was raided in the regional town of 
Homiel and all the equipment that they had bought to replace 
what had been removed on January 6 was stolen again, just 
yesterday.
    And yesterday in a press conference, Interior Minister 
Kuleshov stated that the ongoing criminal case for, 
``organizing and participating in mass disorder that have been 
filed against 37 individuals, including five of the 
Presidential candidates, would go to trial in early February.'' 
Kuleshov took personal responsibility for the police actions 
calling them, ``adequate and proportionate.'' He accused the 
organizers of what we know to be the peaceful December 19th 
demonstration of having planned a coupe d'etat and attempting 
to seize power by force of arms. He also refused to apologize 
to journalists in the press conference who had suffered from 
police brutality, instead accusing them of having beaten the 
police on December 19. He said he did not know who attacked the 
Presidential candidate Nyaklyaeu before the polls closed on 
December 19 but he said it was certainly not the police. So in 
the face of mounting international opposition and a determined 
citizenry, the Government of Belarus shows no imminent signs of 
yielding or acknowledging the truth of what has happened or the 
consequences that the government will face.
    Thank you, Chairman.
    [The prepared statement of Mr. Melia follows:]

                 Prepared Statement of Thomas O. Melia

    Chairwoman Shaheen and members of the subcommittee, thank you for 
inviting me here today to discuss the current crisis in Belarus. I just 
returned on Tuesday from Minsk, where I met with human rights 
organizations, opposition political leaders, independent journalists, 
and the families of many of those currently being held by the regime. I 
also expressed directly to representatives of the Belarusian Foreign 
Ministry our grave concerns over the present situation.
    While the current crackdown may be notable in scale and scope, it 
fits within a clearly demonstrated pattern of behavior by the 
Belarusian Government stretching back to the mid-1990s. In light of 
these recent events, we must continue to speak out against the 
detentions, raids, and other human rights abuses, while at the same 
time continuing to demonstrate our unwavering support for the 
democratic aspirations of the Belarusian people.
                overview of belarus' human rights record
    Alyaksandr Lukashenka rose to power in 1994 as an independent 
candidate running on an anticorruption platform; he won what is widely 
considered Belarus' last democratic election. Since that time, 
Lukashenka has consolidated virtually all power into his own hands. He 
has maintained his authority through a series of fraudulent referenda 
and elections, while at the same time suppressing all forms of dissent, 
sometimes brutally. Lukashenka oversees a bureaucracy, intelligence 
service and economy that remain largely unreformed since the Soviet 
period. In the past, political opponents and journalists have 
disappeared; security forces were presumed to be responsible. In 
today's Belarus, civil liberties--including freedom of speech, press, 
assembly, association, and religion--are sharply restricted. The 
government controls and limits citizens' access to information through 
near-total domination of television and print media. Through a 
restrictive Internet law that entered into force in July, authorities 
are working to extend that control even further.
    Belarusians live their lives under the watchful eye of the KGB, 
which employs wiretapping, video surveillance, and a network of citizen 
informers to keep the public in line. Authorities arrest, detain, and 
imprison people for criticizing members of the government, for 
participating in demonstrations, and for other political reasons. 
Police routinely beat protesters, use excessive force when dispersing 
peaceful demonstrators, and employ physical and psychological torture 
during investigations. The regime works to suppress the activities of 
nongovernmental organizations (NGOs), independent media, political 
parties, and religious groups through a mix of nonregistration, 
harassment, fines, and prosecutions. Moreover, individuals who engage 
in activities on behalf of any organization that the government refuses 
to register in any of these sectors face criminal prosecution with 
potential jail terms of up to 3 years. State-owned companies, which 
employ most Belarusians, routinely fire employees as retribution for 
their political activities or for attempting to unionize. Short-term 
labor contracts ensure that no citizens can take job security for 
granted. University students have been expelled for expressing their 
opinions, and young men with ties to the opposition have been forcibly 
conscripted. The country's judiciary suffers from blatant political 
interference, corruption, and inefficiency; trial outcomes are usually 
predetermined, and many trials take place behind closed doors. Over the 
years, the regime has held numerous political prisoners for extended 
periods of detention. Abuse of prisoners and detainees is pervasive, 
and conditions inside prison remain extremely poor; the government does 
not permit any independent monitoring of prisons. Belarus under 
Lukashenka has well and truly earned its designation by The Economist 
Intelligence Unit as an ``authoritarian'' country, and its place on the 
Freedom House list of the ``Worst of the Worst.''
    While the broader situation in Belarus has changed little over the 
past decade and a half, during the past 2 years, the regime began to 
indicate at least some interest in exploring improved relations with 
the United States and European Union through the loosening of some 
restrictions on political and civil society activity. In early 2007, 
the United States took concrete action to press the government for the 
release of political prisoners through the imposition of unilaterally 
targeted sanctions against Lukashenka-controlled, state-owned 
petrochemical conglomerate ``Belneftekhim.'' Lukashenka responded in 
early 2008 by forcing the departure of our Ambassador and the 
reduction, almost overnight, of our Embassy's American staff from 33 
diplomats to five. But over the next few months, authorities released 
all of the political prisoners. During late 2008 and into 2009, the 
government took other small positive steps, including allowing the 
registration of a few civil society organizations, and allowing a small 
number of independent newspapers to be sold through the government 
monopoly distribution system. At the same time, however, authorities 
resisted pressure from the United States and EU to undertake any 
meaningful systemic changes. The government ignored requests to repeal 
Article 191 of the criminal code, a tool routinely used to harass 
members of unregistered organizations. In the runup to the 2010 
Presidential election, the regime declined to follow through on 
repeated requests from the Organization for Security and Cooperation in 
Europe (OSCE) Office of Democratic Institutions and Human Rights to 
bring its election law into compliance with OSCE standards.
                       the presidential campaign
    The campaign environment leading up to the December 19 Presidential 
election included a proliferation of opposition candidates, nine of 
whom ultimately secured places on the ballot. In marked contrast with 
previous election cycles, authorities generally did not interfere with 
campaigning by the candidates. The challengers were allowed to appear 
together on state-controlled television for a live hour-long debate, 
which Lukashenka boycotted. At the same time, however, authorities were 
working diligently to ensure that the election machinery remained 
firmly in the hands of regime supporters. In order to bypass the legal 
requirement that a minimum of one-third of election commission members 
must hail from political parties and NGOs, the regime stacked local, 
municipal, and regional election commissions with state workers who 
claimed to be representatives of fabricated NGOs or nonexistent 
proregime political parties. Of the roughly 70,000 precinct-level 
electoral commission members at 6,346 polling stations, only 183 
members (0.27 percent) hailed from parties or organizations that could 
be considered truly independent of the ruling authorities.
    On election day, OSCE and U.S. Embassy observers fanned out across 
the country, and reported on a heavily stage-managed voting process, 
with the regime leaving little to chance. Local ``observers''--who 
claimed to be from government-controlled NGOs but often struggled to 
recall the names of those organizations--were present at most polling 
stations, and in many instances provided written statements to 
international observers stating that the elections had been conducted 
fairly. Members of the OSCE mission reported meeting few truly 
independent local observers. While the voting process generally 
followed established procedures at most polling stations, OSCE 
observers reported instances of ballot stuffing and other 
manipulations, often involving mobile ballot boxes that disappeared 
from sight for long periods during the day.
    When the polls closed and the vote count began, the situation 
deteriorated significantly. OSCE/ODIHR, in its preliminary assessment 
of the conduct of the vote, concluded that the vote count was either 
``bad'' or ``very bad'' in nearly half of the stations observed. At 
many stations, commission members ignored the legal requirement to 
conduct separate counts of the votes from the early, mobile, and 
stationary election day ballot boxes, and instead mixed the ballots 
together. Even where officials conducted separate counts or placed 
votes for each candidate in separate piles, the count was generally 
conducted in a rushed and silent manner, making it impossible to follow 
whether the numbers actually added up. Furthermore, commission members 
at most polling stations kept observers at a distance of 10 feet or 
more from where the votes were being counted, making it impossible to 
independently verify the results. In some instances, OSCE observers 
noted that the vote totals for various candidates changed between the 
time election officials left their polling stations, and the time they 
arrived and submitted the results to the regional election commission.
    The OSCE observation mission and the OSCE Parliamentary Assembly 
noted ``some specific improvements'' in the election process, but 
underscored the fact that ``the vote count undermin[ed] the steps taken 
to improve the election.'' The OSCE also noted that ``election night 
was marred by detentions of most Presidential candidates, and hundreds 
of activists, journalists, and civil society representatives.'' Geert-
Hinrich Ahrens, head of the OSCE/ODIHR observation mission, summarized 
the situation by noting at a December 20 press conference that ``a 
positive assessment of this election isn't possible.''
                        post-election crackdown
    Weeks prior to the election, members of the political opposition 
(including six of the nine opposition Presidential candidates) and 
other civil society leaders announced their intent to hold a large 
peaceful rally on election night to protest the already evident uneven 
playing field shaping the campaign environment and a clear lack of 
integrity of the state electoral machinery. In early December, 
Lukashenka's Presidential administration declared that the opposition 
was preparing ``groups of fighters, buying warm clothes, pyrotechnics, 
and even explosive materials'' to create a ``provocation'' on election 
night. Well before the polls closed on election day, thousands of 
police took up positions in downtown Minsk in anticipation of the 
protest.
    That evening, tens of thousands of Belarusians gathered in downtown 
Minsk, and held the largest public demonstration seen in the country in 
at least 5 years. We may never have a complete and accurate accounting 
of the events of that evening, but there are some things we do know. We 
know that Presidential candidate Uladzimir Nyaklyaeu and his supporters 
were stopped by police and beaten prior to the start of the 
demonstration, and that Nyaklyaeu was later removed from his hospital 
bed by security forces. We know that the demonstration proceeded 
peacefully for a few hours, until unknown individuals began breaking 
the windows of the Government House. In the period that followed, we 
know that security forces launched a broad and seemingly indiscriminate 
crackdown, holding some protesters on the ground with their boots, and 
beating people with fists and batons. Among those injured were 
Presidential candidate Andrei Sannikau and foreign journalists. In 
clearing the square, authorities ultimately detained between 600 and 
700 people. According to human rights organizations, these detainees 
were held for an initial period with extremely limited access to 
physical necessities including water and toilets; they were 
subsequently given hearings before judges without the benefit of legal 
counsel, and were sentenced to between 10 and 15 days of administrative 
detention. The majority of these detainees were then released at the 
end of those sentences (in late December or early January).
    In the aftermath of the crackdown on the square, authorities began 
assembling a group of the most well-known detainees at the KGB 
detention center, some of whom were taken from the square, but others 
who had been taken from their homes and offices in the days following 
the protest. At present, authorities have charged 36 persons with 
organizing or participating in mass riots, including five of the 
Presidential candidates and many of their campaign aides, as well as 
other political leaders, youth activists, and independent journalists. 
Thirty-two of these individuals remain in detention, and authorities 
continue to deny family members access to the detainees and threaten 
the lawyers who have been retained to represent them. Lawyers are 
reporting extremely limited access to their clients; nine detainees 
have not seen their lawyers since Decermber 29. We simply do not know 
the conditions under which these prisoners are being held, but there 
are reports that one Presidential candidate is on a hunger strike. 
Others, such as Nyaklyaeu and Sannikau were injured by security forces; 
we do not know--but are concerned--whether they are currently receiving 
appropriate medical attention. According to authorities, at least 12 
others (including 2 additional Presidential candidates) remain suspects 
but have yet to be formally charged.
    In the days that followed, authorities claimed that the events of 
December 19 were an attempt at revolution. State-owned newspapers 
printed allegations that German and Polish security forces had 
organized and financed a plot to overthrow the government. Belarusian 
security forces have continued day in and day out to raid the offices 
of dozens of independent organizations, media, and human rights groups, 
as well as the homes and apartments of leading activists. Targets have 
included the two leading Belarusian human rights organizations, the 
Belarus Helsinki Committee and ``Vyasna,'' both of which were involved 
in actively documenting the electoral fraud and the post-election 
repression. During these raids, security officials seized as 
``evidence'' the files, computers, flash drives, cameras, and other 
equipment belonging to these organizations. Authorities have also 
arrested and detained additional activists. These raids are continuing 
up to the present.
                       closure of the osce office
    In the wake of the OSCE/ODIHR Election Observation Missions' 
findings that the Presidential election failed to meet international 
standards, Belarusian authorities announced their intention to close 
the OSCE Office in Minsk, one of the few international organizations 
that had the ability to work on promoting democratic governance and 
respect for human rights inside the country. The office's mission was 
to assist the Belarusian Government in developing democratic 
institutions, promoting the rule of law, and forging relationships 
between government and civil society. The office's work was guided by 
OSCE principles and commitments to which all 56 participating states 
have agreed, including respect for the rule of law, freedom of assembly 
and association, and freedom of the media. Based on the conduct of the 
election and the government's subsequent acts, it is clear that the 
OSCE office's work was far from complete. We will continue to press 
vigorously for reinstating the mandate of the office, just as we did 
when Lukashenka briefly expelled the OSCE mission 8 years ago.
                             visit to minsk
    The primary purpose of my recent visit to Minsk was to demonstrate 
the U.S. Government's continued solidarity with--and commitment to--the 
brave men and women who have been working peacefully to promote 
democratic values and political reform. As our Ambassador to the OSCE 
Ian Kelly said on January 20, ``[w]e need to make very clear to the 
Government of Belarus and to Mr. Lukashenka that business as usual 
cannot go on so long as members of the opposition, independent 
journalists, and peaceful protestors are detained.'' And as Secretary 
Clinton and European Union High Representative Ashton said in their 
joint statement on December 23, ``The people of Belarus deserve 
better.''
    During my visit, I repeated the administration's call for the 
immediate release of all those detained in the post-election crackdown. 
I met with human rights groups, NGOs, independent think tanks, members 
of the democratic opposition, religious groups, and independent media 
organizations. I gave interviews to both local and international media 
highlighting our commitment to the release of the detainees and to the 
longer term survival of Belarusian civil society.
    It has also been tremendously heartening to witness the response of 
Belarusian human rights NGOs and civil society organizations to this 
crisis. The country's embattled independent media has provided up-to-
the minute factual reporting of the elections and crackdown, while NGOs 
have worked to document the names and locations of the hundreds 
initially detained. The fact that civil society groups from across the 
former Soviet Union have joined together to create their own Belarus 
monitoring and advocacy group further demonstrates the vital roles 
these organizations play, both locally and regionally.
    Of course, with so many Belarusian political and civil society 
leaders now imprisoned, those who remain out of jail are facing 
unprecedented challenges moving forward. While we have long provided 
moral and other forms of support to independent actors in Belarus, the 
needs now are significant. We are working diligently with our European 
colleagues to ensure that these immediate needs are met, and we are 
also reviewing our overall assistance approach to Belarus for the 
medium and long term.
    What struck me most during my time in Belarus was seeing a brave 
group of independent journalists, political leaders, student activists, 
civic campaigners, and religious leaders--as well as their supportive 
families--who remain undeterred in the face of the Lukashenka regime's 
efforts over the past decade and a half to suppress them. In fact, they 
remain as dedicated as ever to fostering democratic change in their 
country. And I am convinced that there are millions of Belarusian 
citizens who--in spite of the repression, the brutality, and the 
propaganda--want more for themselves and for their children. As 
Europe's last remaining dictatorship, Belarus is the final barrier to 
what both President George H.W. Bush and President Obama have referred 
to as ``a Europe whole and free.'' We owe it to the Belarusian people 
to continue supporting them in this critical pursuit.

    Senator Shaheen. Thank you both very much for your 
testimony, and I especially appreciate your calling attention 
to the five diplomats who are still on the ground in Belarus. I 
hope you will send them our thanks and let them know that we 
will try and do everything we can at our end to call attention 
to what is happening there.
    Both of you talked about the effort or the sort of 
loosening of the regime's imprisoning and harassing of 
political prisoners prior to the election. So can you speak, if 
we know, to what their reasoning is to suddenly crack down 
again post election when, given the outcome, it appeared that 
Lukashenko was not in any danger of losing power? So have they 
decided that Western views of their behavior are unimportant, 
or what do you think has caused the most recent crackdown?
    Mr. Gordon. I am happy to start and then Tom can weigh in 
as well.
    I do not want to seek to get into the mind of Mr. 
Lukashenko, try to understand what led him to order his regime 
to exercise such a brutal crackdown. Madam Chair, you are 
right. We did believe that we were observing steps, limited 
steps but nonetheless steps, in a more positive direction over 
the previous 2 years. We noted that one of our key demands was 
the release of all political prisoners and with the help of 
some of your colleagues in the Senate, that goal was achieved 
and that is why we in a limited way suspended some of the 
sanctions that we had put on in reaction to the holding of 
political prisoners. That seemed to us, one, some evidence that 
our sanctions were noticed and possibly had some effect and, 
two, a sign that maybe the regime was interested in moving in 
the right direction.
    They had also invited in the OSCE to observe the election. 
We had told them if they want this path toward a better 
relationship with the West and the United States, they would 
need to do the right things on democracy and human rights and 
have a free and fair election, and when they invited the OSCE 
to observe that election, we too thought that was a sign of 
their interest in moving in the right direction.
    Why they then chose--and we had made clear. I underscored--
when I traveled there in the summer of 2009, I laid out a clear 
roadmap of what Belarus could do and would have to do to have 
the better relationship that they told us that they wanted. And 
the European Union had done the same thing and even offered 
financial incentives if Belarus changed its ways in democracy 
and human rights. So the path forward was there.
    What led the regime to choose not to take that path and use 
brutality we cannot answer for sure and I do not want to 
speculate about it. All we can say is that they clearly made 
the wrong choice and we need to signal to them that there are 
consequences for doing so.
    Senator Shaheen. This probably goes without saying, but do 
you see an impact on the willingness of civil society leaders 
and those affected to come forward and continue to raise 
concerns about the oppression? And how can we best support 
those folks?
    Mr. Melia. I can report that the array of people and the 
groups they spoke for in the last few days remain undaunted in 
their determination to work for a better future for their 
country. There are lots of anecdotal stories they told about 
the way that they were getting silent and quiet encouragement 
from their friends and neighbors who are not so active in 
political life. As I said, we do not know how the people of 
Belarus really voted on December 19. We do not know if a 
majority voted for or against the guy in power. What we know is 
that there is this hardy band of people that are willing to 
incur real risks, and as I said, many of them go to prison 
often. Somebody told me that when you go to a demonstration, a 
peaceful rally, you wear clothes that you think you may be 
wearing for the next 2 weeks if you are picked up and detained 
under this administrative charge. So it is a regular part of 
their lives.
    They do not show any signs of backing off or reducing their 
work. They are not going to respond in kind to the violence 
that the regime is meting out against them. They are going to 
remain peaceful and work through political means that they can 
inside and outside the system, and they are asking only that we 
support them, that we support them politically as we are doing 
through our visits and through our statements and that we look 
for ways to support them in other ways materially as well, as 
the Europeans and we are talking very concretely about doing.
    Senator Shaheen. Well, certainly the united front from the 
EU and the United States I think is very important. Can you 
also talk about Russia's role in what is happening in Belarus?
    Mr. Gordon. Sure. Russia plays a major role in Belarus, 
obviously a part of the former Soviet Union. The two countries 
have linguistic, cultural, and geographic links that we do not 
question. And when I said earlier that we were seeking to 
provide Belarus a path to the West and a better relationship 
with the United States, I want to underscore we do not see that 
in zero sum terms. All of the countries in Europe should have 
the right to have positive relations not only with us but with 
Russia as well.
    We have said, however, that we do not see any place for 
spheres of influence within Europe and that all countries in 
Europe should have their sovereignty and territorial integrity 
and independence respected and they should be able to choose 
their own alliances and their own relationships. And the 
Government of Belarus told us that they wanted a better 
relationship with the West, and in turn, we told them that 
there was a path to do that but it required movement on 
democracy and human rights. And as I said, we thought that they 
understood that. So now when they tell us they still want a 
better relationship with the West, they do not want to be 
dominated by Russia, unfortunately I think the answer is they 
are making their own choice.
    And let me be clear. We do not have any evidence that any 
outside country, Russia or any other, was involved in what took 
place on December 19. The responsibility for that is Mr. 
Lukashenko and his own regime, but in foreign policy terms, it 
is a real setback for any aspirations Belarus might have had to 
orient itself in a different direction.
    Mr. Melia. There is no love lost between President 
Lukashenko and his counterparts in Moscow. It is a very 
complicated and conflicting relationship in many ways. In the 
runup to the December 19 elections, for instance, Russian 
media, state-influenced media, was scathing in its criticism of 
Lukashenko's management of Belarus and his qualifications for 
office, et cetera. At the same time, Lukashenko's media in 
Belarus was complaining about undue Russian influence and 
supporting opposition candidates and problems were being 
stirred up by Russia.
    After election day, his story changed in the days after. As 
the story to explain why the crackdown had come on December 19, 
evolved--and it has evolved day by day and week by week. It has 
become a different story over time--Lukashenko's complaint 
about foreign manipulation of his political system shifted 
direction. He was no longer complaining about Russia but he 
turned to the West. He complained that Poland and Germany in 
particular had fomented and supported this imaginary uprising 
that they have accused people of launching. So he is as 
mercurial in his assessment of who his friends and enemies are 
as he is in other ways.
    But Russia is very much a part of this. I noticed in the 
last day or so that Foreign Minister Lavrov made a statement 
noting that the Council of Europe had denounced the election 
and the crackdown, and the Russian members of the Council of 
Europe Parliamentary Assembly supported that. And Foreign 
Minister Lavrov noted that that Russians had supported the 
denunciation of the election and the aftermath.
    So I think Russia's views are more complicated than they 
may seem at first glance. They clearly have commercial and 
other security interests in Belarus. They have two military 
bases there. So it is a complicated relationship. There is an 
opportunity for Russia here too to demonstrate an interest in 
democratic fundamentals.
    Senator Shaheen. Thank you.
    Senator DeMint.
    Senator DeMint. Thank you, Madam Chairman.
    Secretary Gordon, you said that we already have significant 
sanctions, visa bans, assets we are freezing, but you are 
looking at ways to strengthen and widen. What are our options 
at this point that you think might make a difference?
    Mr. Gordon. I outlined a couple of things that we are 
looking at. First of all, as I noted, when Minsk finally 
released the political prisoners that we had been insisting 
they release in 2008, we suspended sanctions on two 
subsidiaries of one of their major industrial conglomerates, 
Belneftekhim. And what we are looking at doing now and intend 
to announce soon is reimposing those sanctions, revoking the 
general license to do business with those subsidiaries. There 
is a very clear link. We suspended those sanctions because they 
released political prisoners.
    We have said publicly--I have stated publicly that if those 
detained on the December 19 crackdown were not released very 
soon, we would have to conclude that they are now political 
prisoners. When you arrest people who run for President and put 
them in jail, it is hard to escape that conclusion. And 
therefore, if they have political prisoners, one of the things 
we will do is reimpose those sanctions.
    As I noted as you pointed out, we already had a significant 
travel ban on categories of officials from the regime and we 
are looking at widening those categories so that we make sure 
that all of those who were involved in the crackdown are not 
able to travel to the United States.
    Senator DeMint. But will the EU follow us on that? Will we 
be consistent in sanctions with them?
    Mr. Gordon. We certainly hope so and that is why we have 
been working so closely together. Because our sanctions have 
been more extensive from theirs already, we had less additional 
room for maneuver, which is why we have tried to so coordinate 
with the EU which has greater relationships with Belarus on 
which Belarus relies even more. It is obviously for the EU to 
decide and announce, but we are hopeful that they too will be 
taking steps in similar areas to us so that this is a unified 
international message.
    Senator DeMint. I am sure you have gamed this out, but if 
we and the EU make it harder and harder to do business with us, 
are we pushing them into the hands of Russia? How do you see 
this playing out?
    Mr. Gordon. We have, indeed, thought that through, gamed it 
out, however you want to put it. And as I said, this is a 
choice they have made. They had told us they did not want to be 
uniquely dependent on their big neighbor, and we made clear 
that there was a way for them to avoid that. And now I think we 
need to maintain our credibility and demonstrate that when we 
say something, we mean it.
    We have tried to give them, even since December 19--the 
reason we did not act immediately was we would like to see 
these detainees released. And we said then release them or 
there will be further consequences. And again, for our 
credibility both with Belarus in the future--because as I had 
noted to Senator Shaheen, we would like to believe that past 
sanctions actually led them to think about and ultimately 
release political prisoners and take other positive steps. But 
also if I might in the broader picture, there may be other 
``leaders,'' if that is the right word, around the world 
thinking about how they are going react to demonstrations. And 
if the message we send is there are no consequences, that might 
give them more space to act in ways that we do not want to see. 
So that is why we feel it is important to carry out these 
additional sanctions.
    Senator DeMint. And just a couple more questions.
    Mr. Kramer, who will be up in the next panel, has said that 
Belarus is selling arms to places like Syria and Venezuela, the 
Sudan, and Iran. We know this regime is dangerous to its own 
people. How big a factor are they in creating dangers in other 
parts of the world?
    Mr. Gordon. It is something we follow very closely 
obviously. There have been cases in the past of Belarus selling 
arms to other unsavory regimes. Some of those have the 
potential of falling under legal restrictions and legislation 
passed by this Congress. And obviously, we will enforce our 
laws if we do have evidence of Belarus selling weapons that 
violate those laws.
    Senator DeMint. I guess I will ask this to Mr. Melia. Do we 
need to be looking at things, international broadcasting into 
Belarus, ways to communicate to people, encourage them? What do 
we need to be doing to assist the people to make sure they know 
the world is supporting their freedom?
    Mr. Melia. I think you are exactly right, Senator. Among 
the things that we are looking at enlarging is our support for 
independent media in Belarus. There is a network of printed 
newspapers and Web sites that operate inside Belarus almost 
entirely due to support from the international community in a 
very difficult environment. There is also broadcasting into 
Belarus. RFE/RL is doing that. I do not know if there is room 
for enlarging the hours per day or the nature of that 
programming, but that is certainly one of the things that we 
are looking at doing. But that is an important part of our 
work, to try to get the message in, just as we want to get the 
message out. We want to hear from the people of Belarus as we 
can, notwithstanding the difficulties they face in expressing 
themselves.
    And that is a network that is working. The international 
assistance has not only kept hope alive, but it has kept 
organized communities of men and women in Belarus active in 
communicating with their neighbors and their larger society 
about democratic values, about what happens in the West, about 
what the future could look like for Belarus. So that is going 
on now, again thanks largely to international support.
    As Secretary Gordon mentioned, we are planning to announce 
an enlargement of that support by the United States in tandem 
with enlargement by European allies who are also going to do 
that, make it easier for students who may be expelled from 
Belarusian universities for their political activism to find 
places in western European universities and other ways that 
they can be supported in their work so that we can mitigate 
some of the punishment that is being dealt to them by the 
government.
    Senator DeMint. One quick question, Madam Chairman. I guess 
this is back to Mr. Gordon.
    How does this affect the highly enriched uranium deal that 
we signed last year? Are there any growing concerns?
    Mr. Gordon. Thank you. We hope it does not in the sense 
that getting the highly enriched uranium out of Belarus is a 
high priority for this country. It is very consistent with the 
President's nonproliferation agenda and his desire to secure 
all unsecured nuclear materials, and this would be an important 
step in the United States interest. We did not do the HEU deal 
with Belarus that Secretary Clinton announced on December 1 as 
a favor to them. We did it out of the U.S.'s interest. And even 
as we move forward with additional measures, consequences in 
response to December 19, we would still like to see Belarus 
honor its commitments to ship out all of the HEU out of the 
country by 2012, by the time of the next nuclear security 
summit. So we hope that these things remain separate and they 
uphold their end of the deal and get rid of the HEU.
    Senator DeMint. Thank you, Madam Chairman. I yield back.
    Senator Shaheen. Thank you.
    Let me just follow up very quickly on that point. You said 
we hope they will do that. Do we expect them to do that?
    Mr. Gordon. We expect them to do that. We have an 
agreement. The agreement said that Belarus would ship out of 
the country, by the time of the next nuclear security summit in 
2012, all of its HEU. I should note that in recent months, they 
have already shipped out some HEU. So we have every reason to 
believe that--and we expect them to carry out what they agreed 
to do.
    Senator Shaheen. Thank you. Thank you both very much.
    Thank you for your ongoing efforts.
    While we are switching over panels, let me just point out 
that the IRI has assisted the subcommittee in collecting 
additional testimony from opposition figures, and without 
objection, I would like to add those to the record.
    We also as a subcommittee invited political opposition and 
civil society figures currently out of the country to offer 
written testimony for the hearing today, and I will also enter 
those into the record without objection.

    [The above mentioned statements can be found in the 
``Additional Material Submitted for the Record'' section of 
this hearing.]

    Senator Shaheen. And we will ask our second panelists to 
come forward. Again, thank you all very much for being here. We 
appreciate your willingness to take the time today to share 
with us your knowledge of what is happening on the ground in 
Belarus.
    Mr. Kramer, I will ask if you would go first.

  STATEMENT OF HON. DAVID KRAMER, EXECUTIVE DIRECTOR, FREEDOM 
                     HOUSE, WASHINGTON, DC

    Mr. Kramer. Madam Chairwoman, thank you very much for 
inviting us here today and for holding this very important 
meeting, and I am also delighted to see so many people in the 
audience reflecting an interest in what is going on in a 
country that is, in fact, in the heart of Europe and a country 
that is definitely going in the wrong direction posing a 
challenge not just to Europe and the United States but to all 
democracies around the world.
    As you and Senator DeMint have said, we have seen real 
brutality conducted by Aleksandr Lukashenko's security forces, 
including the arrests of more than 600 protestors. Those also 
include seven out of nine Presidential candidates, four of whom 
remain in jail, and Lukashenko is personally responsible for 
this.
    But even in the past week alone, if I may, I would like to 
just read a few headlines that have been on Radio Free Europe/
Radio Liberty's Web site that give a flavor that the repression 
of Lukashenko continues. ``Belarusian Athlete Fired for Taking 
Part in Protest''; ``Belarusian Activist's Home Searched by 
Police''; ``Belarusian Newspaper Sues Former Employee for Libel 
for Not Condemning the Protest''; Belarusian KGB Confiscates 
Opposition Activist Computers''; Journalist Temporarily 
Detained in Belarus''; ``Belarusian Union Leader Arrested in 
Minsk''; ``Belarusian Opposition Activist's Home Searched by 
KGB and Police.'' These are just in the past week and they are 
just a snippet of the kinds of repressive measures that 
Lukashenko's security forces have been undertaking since 
December 19.
    And what we have seen is a reflection of Aleksandr 
Lukashenko that is not new. This is the Lukashenko who 
disappeared four political opposition figures in 1999 and 2000, 
who has, as Senator DeMint pointed out, engaged in arms sales 
to other repressive regimes. And so Lukashenko is a threat not 
only within his borders but beyond his borders as well.
    In 2006, he oversaw a fraudulent election, major human 
rights abuses, and massive corruption in response to which the 
United States and the European Union imposed sanctions against 
him and others in his regime. Those sanctions, I would argue, 
and having been involved at the State Department at the time 
and working with other colleagues in opposing those sanctions, 
secured the release of the political prisoners in 2008. They 
demonstrated that tough measures do get Lukashenko's attention 
and can produce results. They did not turn Belarus into a 
democracy, but they did force him to liberalize and take some 
positive steps. Those steps, of course, were all undone on 
December 19 even though the European Union was hopeful that its 
engagement policy toward Belarus might bring about a change.
    There have been many in Europe who have been worried that 
pressure and sanctions against Lukashenko would push Belarus 
toward Russia. I think it is important to keep in mind that we 
should be adopting policies toward Belarus based on what 
happens inside Belarus not through a Russia prism. We saw a 
stream of visitors going to Minsk. We saw Lukashenko travel to 
Rome in April 2009 and have a meeting with the Pope. We saw 
Belarus being invited to participate in the EU's Eastern 
Partnership, although the invitation to Lukashenko to come to 
Prague in May 2009 was done with the hope that he would 
actually not show. And offers of billions of dollars, $3.5 
billion, in assistance if the election passed the ``free and 
fair'' test. All of these things were put on the table for 
Lukashenko, and his response was essentially, if you will 
pardon the expression, a middle finger to the United States and 
to the European Union.
    The United States also got involved in this with the HEU 
deal that has been referenced already. Secretary Clinton met 
with Belarusian Foreign Minister Martynov in Kazakhstan and 
signed the deal on HEU. But unfortunately, this broke with a 
longstanding U.S. policy of not having such high level 
engagement, a policy I must say that dates back to her 
husband's administration, not just the Bush administration.
    So what we saw on December 19 and what we have seen since 
then has been Lukashenko acting as Lukashenko. My guess is he 
got well below 50 percent of the vote and he knew it, and that 
is what triggered such a violent response to all those who were 
protesting in downtown Minsk. It seemed he flew off the handle 
and yet this was also fairly normal behavior for him. And now 
the situation is much worse than that in 2006 when the European 
Union and United States together imposed sanctions.
    What do we do? We need to speak with one voice. The enemy 
is Lukashenko, and he is the enemy not just to the European 
Union and the United States. He is an enemy to all human rights 
and democracy advocates inside his country and in the whole 
region. Freedom and democracy are the common goals. We have to 
keep up the drum beat so that there is no deafening silence to 
those fighting for the right cause in Belarus. We have to 
support civil society. We have to support the opposition. We 
should be waiving visa fees for citizens, the average 
Belarusian citizens, and help students who have been kicked out 
of university for having participated in the demonstrations. We 
should be providing help to families and those in detention 
with lawyer bills, medical support, food, and other kinds of 
assistance.
    Next week there will be a donors' conference in Warsaw. 
This is a very commendable step. The Pols will be hosting this 
and I know the United States will also be represented. It is 
very important that the United States and European Union, 
together, come up with concrete assistance for these 
individuals in need. We need to support more media to let the 
people inside Belarus know that we are on their side. We need 
to resume material support for opposition and civil society. 
Neutrality in the case of Belarusian politics is an enemy of 
freedom and we cannot continue. We need to meet with activists 
and opposition figures, and it is why I particularly commend 
Tom Melia for his trip to Minsk in which he provided very 
important moral support to those on the ground. And for 
Congress, I would strongly urge the passage of the latest 
iteration of the Belarus Democracy Reauthorization Act of 2011 
which I understand is being introduced soon.
    At the same time that we provide that kind of support, I 
hope that the United States and European Union also ratchet up 
the pressure on Lukashenko. Tough talk is not good enough. 
There have to be major consequences for what happened, and this 
is, as I said before, worse than what happened in 2006. I 
welcome the steps that Secretary Gordon announced here today 
that the United States will take, and I also understand that 
the EU will be taking significant measures when it gets 
together next Monday.
    We should reimpose the visa ban. The EU should lift its 
suspension of the visa ban. And we should include Foreign 
Minister Martynov so that he cannot go around Europe peddling 
the lies of his dictatorial leader. We should extend the visa 
ban to the immediate families of those who engaged in human 
rights abuses so that the sons and daughters cannot live in or 
study or vacation in Europe or the United States. And they need 
to understand the reason they cannot do that is because their 
mother or father engages in human rights abuses for a dictator 
in Europe.
    We need to expand the asset freeze.
    We need to go after state-owned enterprises, as Secretary 
Gordon mentioned, with Belneftekhim. That worked in securing 
the release of political prisoners.
    And we need to avoid meetings with senior Belarusian 
officials until they take the necessary steps.
    No more international financial assistance for Belarus. No 
more IMF loans. No more World Bank loans. No more EBRD 
assistance.
    I would strongly urge the European Union to consider 
kicking Belarus out of the Eastern Partnership. Another 
invitation to Lukashenko hoping that he actually would not show 
up for an Eastern Partnership summit is not good enough.
    We need to understand that it is pressure. It is the fist 
that Lukashenko understands. That is the language that gets 
through his head. It is time to step up for democracy. This has 
not been a good couple of months or years in the region with 
the growing disregard in Russia for human rights, with concerns 
about Ukraine's possibly heading in the wrong direction.
    Belarus is a real test for the West. We have tens of 
thousands of people, an unprecedented turnout, in the squares 
in downtown Minsk showing up to protest against a fraudulent 
election and the Lukashenko regime. Our support should be for 
those thousands of people, brave people, who turned out facing 
adverse circumstances and the brutality of the security 
services. We need to protest against Lukashenko's rule. They 
are the future of Belarus, and they need our support and 
solidarity now.
    Thank you.
    [The prepared statement of Mr. Kramer follows:]

               Prepared Statement of Hon. David J. Kramer

    Madame Chairwoman, members of the committee, it is an honor to 
appear before you here today to discuss the latest situation in 
Belarus, and I commend you for holding today's session. It is vitally 
important that the United States and Europe stay focused on the 
deteriorating situation in Belarus, support those in desperate need of 
assistance, and take decisive steps in response to the latest assault 
on freedom committed by Europe's last dictator, Aleksandr Lukashenka.
    In just 4 days, European Union (EU) Foreign Ministers will meet 
and, I hope, vote to reimpose a visa ban and other sanctions against 
the Lukashenka regime. Frankly, anything short of that is unacceptable 
and would constitute a slap in the face to those victims of 
Lukashenka's repression. It would also send a signal to authoritarian 
regimes around the world that they can get away with massive human 
rights abuses cost-free. Five years ago, in response to Belarus' 
previous fraudulent Presidential election, human rights abuses, and 
corruption, the United States and EU together imposed sanctions against 
the Lukashenka regime. Over time, those sanctions--i.e., not engagement 
but pressure--secured the release of political prisoners held in 
Lukashenka's prisons.
                     engaging lukashenka has failed
    Unfortunately, after the EU in particular eased its sanctions 
against the Lukashenka regime in October 2008 (the United States kept 
most of its sanctions in place) and launched an engagement strategy 
with Minsk, the pressure on Lukashenka went away, and he masterfully 
played the West and Russia off of each other. Fearful that continued 
sanctions and pressure would drive Lukashenka into Russia's arms, 
European leaders tried to lure him toward the West by including him in 
their Eastern Partnership initiative in May 2009, offering $3.5 billion 
in assistance if last month's election passed the ``free and fair'' 
test, and paying lots of visits to him in Minsk in the lead-up to the 
election. Lukashenka and his 5-year-old son even visited Rome, where 
they met with Prime Minister Berlusconi and Pope Benedict XVI in April 
2009. In the days before last month's election, some European leaders 
essentially endorsed Lukashenka's candidacy, arguing that he was the 
best bet against Russian pressure. There were even glimmers of 
liberalization in Belarus in the lead-up to the December 19 election, 
supporters of engagement claimed.
    Europeans were not alone in softening their approach toward 
Lukashenka. Despite the fact that Lukashenka expelled the American 
Ambassador and almost 30 American staff from the Embassy in Minsk in 
March 2008 and has not allowed any of them to return, Secretary of 
State Hillary Clinton met with Belarusian Foreign Minister Martynov in 
Kazakhstan on the margins of last November's Organization for Security 
and Cooperation in Europe Summit to sign an agreement on the transfer 
of highly enriched uranium (HEU). Such a meeting broke longstanding 
policy dating back to her husband's administration against such high-
level encounters. Securing HEU is important but no more so than 
standing by principle on freedom and human rights; moreover, the timing 
of such a meeting just weeks before the Belarus election sent an 
unfortunate signal that the United States was siding with Lukashenka, 
too. Only at the end of Clinton's joint statement with her Belarus 
counterpart did the two officials briefly mention human rights issues--
and even then the statement praised Belarus for inviting international 
observers to monitor the upcoming election and offered no words of 
criticism for the grim situation there.
    Despite European and American offers of engagement, the situation 
inside Belarus was, in fact, deteriorating, not getting better. The 
government increased pressure against opposition leaders, arrested 
civil society activists, violently broke up protests, harassed the 
Polish minority, and denied registration to newspapers. In certain 
respects, the regime was less blatant about its repression than it was 
in 2006; it avoided high-profile political-prisoner cases, which are 
easy for the international community to focus on and cause image 
problems for the regime. But make no mistake: The general political and 
human rights environment did not appreciably improve in the lead-up to 
the election. In Freedom House's Freedom in the World annual rankings, 
Belarus has not been rated as ``Not Free'' for years as its government 
keeps a vice-like grip on all institutions of democratic 
accountability. Meaningful changes have not been in evidence, and the 
regime's true essence shined through in this election.
                      election day to the present
    Indeed, the final nail in the coffin came on December 19. 
Independent exit poll results, contrary to official rigged numbers, 
showed Lukashenka falling well short of the necessary 50-percent 
threshold to avoid a runoff second round. Apparently deciding to deal 
with the opposition the only way he knew how, Lukashenka ordered his 
KGB goons (and yes, they are still called the KGB) to engage in 
provocations and crack heads, literally, against peaceful protestors in 
downtown Minsk. Their crime: they were expressing their frustration 
with rigged elections and Lukashenka's dictatorial rule. The security 
services assaulted and arrested more than 600 people, including seven 
of nine Presidential challengers, and savagely beat dozens of people. 
The KGB has continued to conduct raids and attacks against journalists, 
opposition figures, civil society representatives, and their families.
    The violence authorized by Lukashenka on December 19 and the abuses 
that continue to this day are much worse than those in 2006. If 
sanctions were called for in 2006, there should be no debate that they 
are warranted this time around, too. Far more people have been detained 
and beaten up in the past month than in 2006, and the raids on 
journalists and opposition figures continue unabated. Civil society 
representatives and opposition figures support the reimposition of 
tough sanctions against the Lukashenka regime. Spurning their calls 
would be a setback for freedom and democracy in Belarus and elsewhere 
around the world. Moreover, it's time to stop viewing Belarus through a 
Russia prism. In 2006, the EU and U.S. imposed sanctions against 
Lukashenka based on how he abused his own people, not on whether Minsk 
and Moscow had good or bad relations. We should not change that 
approach now and worry whether new sanctions will push Lukashenka 
toward Russia.
                   enough talk--it's time for action
    Tough talk condemning what has happened in Belarus is simply not 
good enough. Lukashenka and his henchmen must suffer major consequences 
for what happened. A wider visa ban should be imposed on those 
responsible for the human rights abuses and be extended to their 
immediate families if we want it to have impact. It should also include 
Foreign Minister Martynov. While not directly involved in human rights 
abuses, Martynov acts as the mouthpiece for an abusive, corrupt 
dictator and should not be allowed to peddle his government's lies 
anywhere in the West. High-level meetings with him, as EU High 
Representative Baroness Ashton held a week ago, lend unwarranted 
legitimacy to him and his boss. Moreover, Belarus should be suspended 
from participating in the EU's Eastern Partnership; to allow it to 
remain a beneficiary of this program is to make a mockery of this 
initiative. Nor should Belarus be entitled to any assistance from any 
European or international financial institutions as long as political 
prisoners remain in jail.
    The United States, too, should be doing what it can to ratchet up 
the pressure on the regime in Minsk, including imposing sanctions 
against state-owned enterprises such as Belneftekhim (the state-run 
Belarusian oil-refining enterprise in which Lukashenka himself 
reportedly had a stake and which the United States sanctioned in 
November 2007). Together, the EU and United States should be speaking 
with one voice and state publicly and repeatedly that Lukashenka is a 
threat to freedom in his country and to the region. He is the reason 
why Belarus suffers from self-imposed isolation from Europe. He is why 
the families of officials who engage in human rights abuses should not 
be allowed the privilege to travel, live, or study in the West. He is 
why their assets are frozen and their credit cards won't work. If they 
want to fix these problems, they need to focus their energies on the 
reason for their hardships--Aleksander Lukashenka.
      showing solidarity with belarus civil society and opposition
    Secretary Clinton issued a good joint statement with EU High 
Representative Ashton on December 23 condemning the violence in 
Belarus. Unfortunately, President Obama remained silent, and the White 
House statement of December 20 was issued in the name of the press 
secretary. President Obama saw fit to issue a statement December 30 
commending Ukrainian President Yanukovych on the transfer of highly 
enriched uranium to Russia, but opted to say nothing on the situation 
in Belarus (or on the verdict in the Khodorkovsky case in Russia or the 
arrest and sentencing of Russian opposition leader Boris Nemtsov). It 
matters in whose name such statements are issued, and the President's 
silence was noticeable.
    Freedom and democracy should be the common cause uniting the EU and 
U.S. together with those inside Belarus who are fighting for a better, 
more democratic future. We must keep up the drumbeat--and that is why 
this hearing is so important I also want to commend Tom Melia, the 
Deputy Assistant Secretary for Democracy, Human Rights, and Labor, for 
traveling to Minsk last week. During his trip, he clearly condemned the 
regime's abuses while standing with those victimized by Lukashenka's 
abuses. Senior-level visits to Minsk these days, to the extent they 
occur at all, should be focused solely on lending support to those in 
civil society and the opposition who are under relentless attack. 
Photo-ops with Belarusian officials, to state the obvious, should be 
avoided at all costs.
    Assuming the EU takes a tough stance next week toward Lukashenka 
and his regime, it should join with the United States in simultaneously 
extending significantly more assistance to civil society and opposition 
forces inside Belarus. We should be pressing for the release of the 
several dozen political prisoners still in jail, for a rerun of the 
election given the fraud that delegitimized the last one (and EU 
ambassadors were right to have boycotted Lukashenka's inauguration last 
Friday), and for restoration of full political rights and civil 
liberties. We should be demanding that the Lukashenka regime change its 
behavior completely--and if it is unwilling, then it should be 
sanctioned until it does. This is a regime that is not serious about 
engagement. This is a regime that only understands pressure and 
strength--that's the way to get Lukashenka's attention. It is a regime 
that a decade ago ``disappeared'' four prominent opposition figures for 
crossing the regime; their whereabouts remain unknown. It sells arms to 
such places as Syria, Venezuela, Sudan, and Iran, revenue from which 
lines not only the state's coffers but Lukashenka's pockets. 
Lukashenka's regime, in other words, is not only a threat to its own 
people but beyond its borders. By practically any measure, Belarus 
under Lukashenka is truly the last dictatorship in Europe, a view 
reinforced by developments on December 19 and since.
    At the same time, it is critical that the West step up its support 
for the opposition and for civil society. This should include waiving 
visa fees for citizens to allow more Belarusians to visit the West. We 
should ramp up opportunities for university students to study in Europe 
and the United States, especially given that some have been expelled 
from their studies for participating in the protests. We must help the 
families of those in detention to pay for lawyers, medicine, food, and 
other needs. We should be expanding efforts to channel media into 
Belarus to let the people there know we're on their side. We should 
continue to meet with activists and opposition figures traveling around 
Europe and to the U.S. to show support for their efforts. In this 
regard, I commend Secretary Clinton for meeting with a group of 
Belarusians and Belarusian-Americans several weeks ago. These shows of 
support are critical. I also welcome next week's donors conference in 
Warsaw as an important opportunity to demonstrate support.
    Congress has an important role to play as well. I urge Congress to 
take up and pass the latest version of the Belarus Democracy 
Reauthorization Act of 2011. I commend Members through joint letters 
and public statements for urging the EU to take a strong stand. We must 
remember that tens of thousands of people turned out in downtown 
Minsk--unprecedented numbers--to protest against a fraudulent election 
and the Lukashenka regime. They knew they were risking serious injury 
and worse at the hands of Lukashenka's repressive security services. 
And yet they stood for freedom and human rights. We should be standing 
with them. When President George W. Bush signed the original bipartisan 
Belarus Democracy Act in 2004, he declared, ``[T]here is no place in a 
Europe whole and free for a regime of this kind.'' At the same time, 
there is very much a place in Europe for a democratic Belarus--but such 
a possibility is unlikely as long as Lukashenka remains in power and we 
in the West provide him succor as we did last year. Our support should 
be for the tens of thousands of brave people who turned out to protest 
Lukashenka's rule. They are the future of Belarus, and they need our 
support and solidarity now.

    Senator Shaheen. Thank you very much, Mr. Kramer.
    Mr. Wollack.

 STATEMENT OF KENNETH WOLLACK, PRESIDENT, NATIONAL DEMOCRATIC 
                   INSTITUTE, WASHINGTON, DC

    Mr. Wollack. Madam Chairman, Senator DeMint, I appreciate 
the opportunity to appear before the subcommittee on behalf of 
the National Democratic Institute.
    The continuing Belarusian crackdown on democracy activists 
that began on December 19 is tragic and extreme. It is deeper, 
wider, and more violent than any since the late 1990s. But it 
is not an exceptional act or a break with the past, rather, it 
is consistent with the pattern that the Lukashenko regime first 
established in the 1990s and has followed ever since. The 
regime may adjust its tactics over time--sometimes the 
government is more responsive to the international community, 
sometimes less so--but the strategy remains one of holding onto 
power at all costs.
    Although Belarus conducts regular elections, they are empty 
exercises at best. Each has violated the country's commitments 
as a member of the Organization for Security and Cooperation in 
Europe. The regime does not tolerate meaningful dissent or 
opposition; and it has also sought to suppress independent 
voices and organizations. It was 4 years ago, for example, that 
the government forcibly disbanded Partnership, a nonpartisan 
election monitoring group that was working with NDI assistance 
and in accordance with OSCE principles. Its offices were 
closed, its equipment confiscated, and its leaders arrested and 
imprisoned, along with NDI's resident representative, for 6 
months or more.
    We are witnessing now a systematic and far-reaching roundup 
of journalists, civic and party leaders, and ordinary citizens, 
some identified from KGB videos of peaceful post-election 
protests.
    Before December 19, reasonable people might have differed 
about the relative merits of ``carrots versus sticks'' 
approaches in dealing with Belarus. There were glimmers of 
liberalization that led some to hope that Mr. Lukashenko could 
be coaxed into constructive cooperation with the transatlantic 
community. But these changes proved illusory. Irrespective of 
its erratic moves toward the East or the West, the regime's 
disrespect for the rights of its citizens remains a constant.
    Government-to-government actions and stiff consequences 
should, of course, be the front line of the international 
response to these events, and coordination with the Euro-
Atlantic community will be essential. In this context, we 
commend bipartisan international outreach efforts such as the 
recent Senate letter to European Union High Representative 
Ashton.
    Last year, we witnessed failed elections in such places as 
Afghanistan, Azerbaijan, Bahrain, Burma, Cote d'Ivoire, Egypt, 
and Haiti. Sadly, Belarus was the latest addition to this 
group. At the same time, there was evidence that the 
international community has the capacity to react decisively. 
This has been most evident in Cote d'Ivoire where the United 
States, Europe, the African Union, the Economic Community of 
West African States, and the United Nations ultimately united 
behind a single message, a strong diplomatic response, and 
targeted political and economic sanctions. Moreover, Cote 
d'Ivoire was expelled from the African Union and the Economic 
Community of West African States.
    Belarus is, of course, a member of the OSCE, which was 
founded on democratic principles. Ironically though, it was Mr. 
Lukashenko who expelled the OSCE Mission from Belarus. And the 
OSCE might consider finding a suitably reciprocal mechanism to 
censure a member's flagrant violation of its core principles. 
Likewise, it is difficult to imagine Belarus remaining a 
participant in good standing of the European Union's Eastern 
Partnership initiative.
    At the same time, our assistance should focus on the 
citizens of Belarus--on defending, supporting, and expanding 
their own aspirations for democratic reforms. Helping the 
hundreds who remain in jail, their families, and those who are 
still being hunted by the KGB must be our first priority. 
Almost as pressing is ensuring the continued existence of the 
democratic organizations they represent. With their leaders 
jailed, equipment confiscated, and activists threatened, the 
survival of many political parties, civic groups, and 
independent media outlets is in jeopardy.
    A third key priority is maintaining a broad array of 
avenues through which more Belarusians can become politically 
active. The citizens who signed petitions, gathered on the 
square, or were simply jarred out of complacency by the 
regime's repression must have ongoing communication links, 
organizations to join, projects to support, information to 
weigh, and opportunities for dialogue if any good is to follow 
from this tragedy.
    As we consider assistance going forward, there are certain 
basics that have proven their worth in situations like these 
around the world.
    First, the democrats inside Belarus need ongoing 
international attention. Vaclav Havel has spoken eloquently 
about how important outside voices were to dissidents behind 
the Iron Curtain--as a source of hope and proof that they were 
not alone. Meetings with high-level visitors, such as those 
that took place recently with Senator Durbin and Tom Melia, are 
invaluable.
    Second, the activists need practical assistance that is 
both responsive to their requests and sensitive to their own 
assessments of the risks. Along these lines, there are a number 
of activities that merit consideration. First, helping 
political parties and civic organizations regroup, strengthen 
their structures, and conduct activities that engage citizens 
in political life. Second, ensuring that political groups have 
access to reliable information about the values and concerns of 
the population and the activities of both their government and 
the opposition. The Polish-based satellite television channel, 
Belsat, is very important in this regard. Third, assisting 
Belarusians to find a wide range of entry points into political 
life, from low-risk discussion groups and community development 
projects to high stakes advocacy on political rights or 
campaigning for office. Our emphasis should not be on promoting 
individual politicians, but rather on supporting democratic 
demand through organizations representing genuine citizen 
interests.
    We would also caution against making rigid distinctions 
between ``political'' and ``nonpolitical'' organizations--so as 
to assist only the latter. Support should go to all groups that 
are responding to and engaging citizens.
    What can the opposition reasonably accomplish in the 
current harsh environment, assuming its activists receive 
adequate moral and practical support from the international 
community? It can defend, expand, and strengthen the popular 
aspirations for democratic change. It can present alternative 
visions for the future of Belarus. Regardless of what 
precipitates a political opening, only grassroots demand will 
ensure a democratic outcome.
    December 19 was a serious setback for the Belarusian 
democratic forces. But I am confident that, with international 
solidarity, they will recover and perhaps reemerge stronger. By 
continuing to invest in the aspirations of the Belarusian 
people, we will bring the country closer to its democratic 
potential. Moreover, we will find ourselves on the right side 
of history.
    Thank you, Madam Chairman and Senator DeMint.
    [The prepared statement of Mr. Wollack follows:]

                 Prepared Statement of Kenneth Wollack

    Madam Chairman and members of the subcommittee, I appreciate this 
opportunity to appear on behalf of the National Democratic Institute 
before the subcommittee on the current situation in Belarus.
    The continuing Belarusian crackdown on democracy activists that 
began on December 19 is tragic and extreme. It is deeper, wider, and 
more violent than any since the late 1990s. But it is not an 
exceptional act or a break with the past, rather it is consistent with 
the pattern that the Lukashenko regime first established in the 1990s 
and has followed ever since. The regime may adjust its tactics over 
time--sometimes the government is more responsive to the international 
community, sometimes less so--but the strategy remains one of holding 
onto power at all costs.
    Although Belarus conducts regular elections, they are empty 
exercises at best. Each has failed to meet minimum international 
standards; each has violated the country's commitments as a member of 
the Organization for Security and Cooperation in Europe (OSCE). The 
Lukashenko regime has consistently demonstrated that it will not 
tolerate meaningful dissent or opposition; and it has also sought to 
suppress independent voices and organizations. It was four years ago, 
for example, that the government forcibly disbanded Partnership, a 
nonpartisan election monitoring group that was working with NDI 
assistance and in accordance with OSCE principles. Its offices were 
closed, its equipment confiscated, and its leaders arrested and 
imprisoned, along with NDI's resident representative, for 6 months or 
more.
    In testimony before Senator Cardin and the Commission on Security 
and Cooperation in Europe in advance of the 2008 parliamentary 
elections, NDI noted that ``most forms of independent political 
activity, including [civic] and political party organizing, have been 
repressed.'' We cited criminalization of political activity through 
denial of registration to all but the most progovernmental 
organizations, closure of media outlets and persecution of journalists.
    Remarkably, the situation today has worsened. We are witnessing a 
systematic and far reaching roundup of journalists, civic and party 
leaders, and ordinary citizens, some identified from KGB videos of 
peaceful post election protests. Mr. Lukashenko's claim that no more 
``senseless democracy'' will be tolerated in Belarus makes clear his 
intention to decimate the democratic opposition and independent civic 
groups.
    Before December 19, reasonable people might have differed about the 
relative merits of ``carrots versus sticks'' approaches in dealing with 
Belarus. There were glimmers of liberalization that led some to hope 
that Mr. Lukashenko could be coaxed into constructive cooperation with 
the trans-Atlantic community. But these changes proved illusory. In 
addition, the Belarusian economy is struggling and there is evidence 
from a variety of opinion polls that Mr. Lukashenko's popularity is 
sinking. His capacity to rule through a so-called social compact is 
thus diminished. The main tool he has left is repression. The very 
nature of the Belarusian regime has made it virtually immune to 
entreaties from its democratic neighbors. Any international response to 
the current crackdown must be shaped by that fundamental point. 
Irrespective of its erratic moves toward the East or the West, the 
regime's disrespect for the rights of its citizens remains a constant.
    Government-to-government actions and stiff consequences should, of 
course, be the front line of the international response to these 
events, and coordination within the EuroAtlantic community will be 
essential. In this context, we commend bipartisan international 
outreach efforts such as the recent Senate letter to European Union 
High Representative Ashton.
    Last year, we witnessed failed elections in such places as 
Afghanistan, Azerbaijan, Bahrain, Burma, Cote d'Ivoire, Egypt, and 
Haiti. Sadly, Belarus was the latest addition to this group. At the 
same time, there was evidence that the international community has the 
capacity to react decisively. This has been most evident in Cote 
d'Ivoire, where the United States, Europe, the African Union (AU) and 
the United Nations ultimately united behind a single message, a strong 
diplomatic response, and targeted political and economic sanctions. 
Moreover, Cote d'Ivoire was expelled from the AU and the Economic 
Community of West African States. The outcome of this standoff remains 
uncertain, but the forthright international defense of fundamental 
political rights sends an important message to the people of Cote 
d'Ivoire.
    Belarus is of course a member of the OSCE, which was founded on 
democratic principles. Ironically, though, it was Mr. Lukashenko who 
expelled the OSCE mission from Belarus. The OSCE might consider finding 
a suitably reciprocal mechanism to censure this flagrant violation of 
its core values. Likewise, it is difficult to imagine Belarus remaining 
a participant in good standing of the European Union's Eastern 
Partnership initiative.
    At the same time, our assistance should focus on the citizens of 
Belarus--on defending, supporting, and expanding their own aspirations 
for democratic reforms.
    The slight liberalization in the preelection period provided a 
glimpse of those aspirations and of the grassroots democratic potential 
in Belarus. Opposition leaders took advantage of the narrow opening to 
create a political environment that genuinely engaged and activated 
people. Democratic candidates, when they were briefly allowed to 
campaign, found volunteers to carry and sign their petitions in numbers 
far exceeding expectations. On election night, thousands of ordinary 
Belarusians imbued with a new interest in politics flocked to the 
central square in Minsk, despite the very real threat of violence. The 
recent crackdown has touched and angered many previously uninvolved 
citizens, fueling increased support for the democratic movement. Since 
the election, political leaders have put aside differences to rally in 
support of political prisoners, forming multiparty organizations such 
as Solidarity and the Coordinating Council. Indeed, this swelling of 
popular mobilization, along with signs that the regime was losing 
popularity, is what seems to have triggered the regime's violent 
reaction on December 19.
    Helping the hundreds who remain in jail, their families and those 
who are still being hunted by the KGB must be our first priority. 
Almost as pressing is ensuring the continued existence of the 
democratic organizations they represent. With their leaders jailed, 
equipment confiscated and activists threatened, the survival of many 
political parties, civic groups, and independent media outlets is in 
jeopardy. A third key priority is maintaining a broad array of avenues 
through which more Belarusians can become politically active. The 
citizens who signed petitions, gathered on the square, or were simply 
jarred out of complacency by the regime's repression must have ongoing 
communication links, organizations to join, projects to support, 
information to weigh, and opportunities for dialogue if any good is to 
follow from this tragedy.
    As we consider democracy assistance going forward, we should bear 
in mind that there is no silver bullet, no magic program formula that 
will lift Belarus out of its current crisis and toward greater freedom. 
But there are certain basics that have proven their worth in situations 
like these around the world.

  <bullet> First, the democrats inside Belarus need international 
        attention. Vaclav Havel has spoken eloquently about how 
        important outside voices were to dissidents behind the Iron 
        Curtain--as a source of hope and proof that they were not 
        alone. We need to stand in public solidarity with the 
        Belarusians now under attack. Meetings with high-level 
        visitors, such as those that took place recently with Senator 
        Durbin and the State Department's Tom Melia, are invaluable. In 
        these conditions, political neutrality would only translate 
        into support for the regime.
  <bullet> Second, the activists need practical assistance that is both 
        responsive to their requests and sensitive to their own 
        assessments of the risk.

    Along these lines, there are a number of activities, including some 
that NDI and others are already conducting, that merit consideration:

  <bullet> Helping political parties and civic organizations regroup, 
        strengthen their structures and conduct activities that engage 
        citizens in political life.
  <bullet> Ensuring that political groups have access to reliable 
        information about the values and concerns of the population.
  <bullet> Ensuring that citizens have access to impartial information 
        about the activities of both their government and the 
        opposition.
  <bullet> Assisting Belarusians to find a wide range of entry points 
        into political life, from low-risk discussion groups and 
        community development projects to high stakes advocacy on 
        political rights or campaigning for office.

    Our emphasis should not be on promoting individual politicians, but 
rather on supporting democratic demand through organizations 
representing genuine citizen interests.
    We would also caution against making rigid distinctions between 
``political'' and ``nonpolitical'' organizations--so as to assist only 
the latter. Support should go to groups that are responding to and 
engaging citizens.
    Even though Belarusian democrats bear no responsibility for the 
current crisis--on the contrary, they are its victims--nonetheless the 
responsibility for democratic progress going forward falls to them. 
What can the opposition reasonably accomplish in the current harsh 
environment, assuming its activists receive adequate moral and 
practical support from the international community?
    First, we should acknowledge that there are no quick fixes. 
Democracy assistance is a long-term process with an unpredictable 
timeline. The objective is to support democrats with networks, skills 
and bases of support so they can fill the political vacuum when 
openings occur.
    Until then, the leaders of the Belarusian opposition can defend, 
expand, and strengthen the popular aspirations for democratic change. 
They can present alternative visions for the future of Belarus. 
Regardless of what precipitates a political opening, only grassroots 
demand will ensure a democratic outcome.
    December 19 was a serious setback for the Belarusian democratic 
forces. But I am confident that, with international solidarity, they 
will recover and perhaps reemerge stronger. By continuing to invest in 
the aspirations of the Belarusian people, we will bring the country 
closer to its democratic potential. Moreover, we will find ourselves on 
the right side of history.

    Senator Shaheen. Thank you very much, Mr. Wollack.
    Ms. Koliada, you may begin.

 STATEMENT OF NATALIA KOLIADA, GENERAL DIRECTOR AND COFOUNDER, 
              BELARUS FREE THEATRE, MINSK, BELARUS

    Ms. Koliada. Madam Chairperson, distinguished members of 
the committee, thank you so much for giving me a chance and the 
floor to speak today on behalf of those people who are today in 
jail. They do not have voices. I still have the voice, so I 
will speak on their behalf.
    If you allow me to start, I will start.
    My name is Natalia Koliada. I am cofounder of Belarus Free 
Theatre, together with my husband, Nikolai Khalezin, and 
Vladimir Shcherban, and a great group of actors. We gathered 
together in order to make the theatre and say whatever we think 
wherever and whenever we want and to whom we want by means of 
arts. We wanted our spectators to think and this is the most 
scary part for the Belarusian dictator, when people start 
thinking. As a result of our artistic works, the company 
experienced all possible types of repression, from dismissal 
from their jobs to arrest of the whole group, together with all 
spectators.
    But I am here today not as a theatremaker. Today I am here 
just as a human being. I am a person who was lucky enough 
because of a very simple judicial mistake to leave Belarus 
after a 1-day imprisonment. Now my parents and my husband's 
parents are under constant control and pressure of the KGB. My 
apartment and my husband's apartment was searched three times. 
It was under attack of the KGB three times. And of course, it 
is not possible to compare a pain of our parents whose children 
are free but not with them to the pain of those with relatives 
in the KGB jail now. Everything that happens in Belarus now 
reminds only Stalin times.
    I am here today to talk on behalf of my friends, people 
with who I worked and who I even never met in my life, but all 
of them are now in the KGB jail, and they face from 5 to 15 
years of imprisonment. If I have a voice, I will speak for 
them.
    I am here today on behalf of all their relatives who do not 
have any news about their loved ones because lawyers are not 
allowed to those who are in custody. Nobody knows their 
destinies and health conditions.
    Everything that happened on December 19, 2010, was a big 
surprise for the world, but not for us who live under a 
dictator for the last 16 years. Belarus has now entered the 
third era in its most difficult stage of life beginning a 
decade ago. In 1999-2000, Lukashenko eliminated public and 
political leaders using a death squad.
    Then there was 2006, the year of previous Presidential 
elections when European politicians essentially denied help to 
the democratic forces of Belarus. On the eve of the election, 
one must put the question, Can the European Union really put 
pressure on Lukashenko and start exercising sanctions? One of 
European diplomats said only if people are starting to be 
killed in the streets. Five people are not enough to be killed 
in the streets of Minsk?
    On September 3, 2010, our friend and journalist, Oleg 
Bebenin, founder of the most influential and independent Web 
site, Charter 97, was found dead. He was found hanged in his 
country cottage. Ridiculously staged suicide would be one of 
the key elements in the upcoming election campaign. The killing 
led to a so-called international investigation, but European 
politicians even then turned a blind eye to the death, limiting 
their intervention by the arrival of two experts whose names 
were not even announced officially to examine documents offered 
by the Belarusian authorities. And Charter 97 Web site was 
under the first attack on the night from December 19-20, just 
showing to the world that nobody should know what is happening 
in Belarus. Nobody needs witnesses.
    That should have been the moment when the world stops 
talking to the last dictator of Europe. This is the person who 
kidnaps, kills people, puts innocent people in jail, and uses 
them for blackmail, sells arms to Iran, Venezuela, Syria, Iraq. 
The world should call such a person as a terrorist and place 
him on the ``most wanted'' list. Generally such people are 
hunted down and put on trial, but somehow the rule does not 
apply to Lukashenko.
    Belarus was one of the main five countries that traded 
arms. Lukashenko's elder son, Victor, is in charge of trading 
arms, national security's border control and it is obvious that 
he was one of those who led the crackdown on a peaceful 
demonstration on December 19. His middle son is in charge of 
gambling. Such a family. And the whole country is under their 
control.
    Nevertheless, the West continued to engage this monster. We 
felt betrayed by those who we thought should be helping us. 
Human rights and democracy took second place to geopolitical 
interests, business profits, and historical fears of Russia.
    It was a strategic mistake for Europeans to count on Russia 
and hope that this country that never cared about any human's 
life such as Khodorkovskiy, Politkovskaya, Estimirova would 
start to care about human rights in Belarus.
    Lukashenko played EU with his fake preelection 
liberalization and the EU ate it up. Why did the Europeans buy 
this? Belarus is a country without oil, gas, or seaports. 
Belarus just has its people. Who needs such things as people?
    It was a very bad sign when there was discussion on 
December 1 on uranium. It showed Lukashenko a support from both 
sides, the visit of the Minister of Foreign Affairs of Germany 
and Poland to Belarus and discussion on uranium on December 1 
by Secretary of State.
    In the year preceding the 2000 Presidential election, 
Lukashenko's claims of liberalization were taken seriously by 
the West. We have not experienced this for the most notorious 
liberalization ourselves. Talks on the liberalization and 
flirting with the dictator led to a wave of terror that began 
on December 19, 2010, and continued until now.
    I cannot describe the reality of everyday life in Belarus 
on December 19 because it would take months to describe all 
personal tragedies that take place now in Belarus. But I could 
give you just a story of my personal experience and experience 
of our theatre manager and those people who I met in jail from 
December 19-20.
    On December 19, about 50,000 people gathered at the square. 
Then it was attack. Then it was provocation by the government. 
There were a few attempts to provoke people from the side of 
the government. People tried to resist, but it was not possible 
to resist. An enormous attack by thousands of people in black, 
in uniforms in helmets with their shields moved to people to 
arrest.
    My husband and I--we were close. But when a company of riot 
police struck at the crowd, we became separated. The only thing 
that happened next--it was me in a van with total darkness. The 
only thing that the special division of police referred to us 
at the first moment there were five people at that mobile jail. 
The ``animal''--this was the lightest word that we heard 
regarding to ourselves.
    In the van, there were absolutely darkness. Gradually the 
paddy wagon was filled with the detained and eventually 68 
people were crammed inside. First we heard: ``Lie on the floor. 
Do not move. One move and I'll kill you.'' But by the time 
there were about 70 people, it was necessary for people to 
stand up despite the fact that the metal shed measuring about 2 
by 5 meters.
    The car started to move around the city. We had been in the 
car for about 4 hours, and we stood on the territory of the 
jail where that van came. Two people started to lose their 
consciousness, but doctors did not appear, of course.
    In the 4 hours, we started to be taken one by one. We had 
been told that we need to go to jail head to head. And when I 
got to the jail, I saw the corridor. To my right hand, I saw 
hundreds of men who were staying along the sides of corridors, 
both walls, and they faced the walls with their hands back. And 
the only thing that is possible to recall would be from Soviet 
films about Nazis. So it was exactly this kind of story.
    Women were separated from men and we were moved to the 
second floor. And when I got to the second floor, I could not 
believe my eyes because it was the same that it was on the 
first floor, but they were women facing the walls and with 
their hands back. It was the moment when the head of the 
special division of police said that Nazis will be like a dream 
for you. And it is a very horrible moment to hear because every 
third Belarusian was killed by a Nazi, and knowing that the 
Belarusian citizen is saying this thing to another Belarusian 
citizen, it just shows you the leverage of hate and 
dictatorship that exists in Belarus.
    Through the night, more than 600 people were arrested, 
including six Presidential candidates, two of them Andrei 
Sannikov and Vladimir Neklyaev, in horrible health condition. 
Nobody knows what is happening to them.
    In the detention center when we stood overnight, nobody 
even provided us cells. We were not allowed to sleep. We were 
not allowed to drink. We were not allowed to use the toilet. If 
you asked to get some water, you would say that go and use the 
toilet.
    In the case of our theatre manager, Artem Zheleznyak, when 
he confessed to me, when he was released on December 31, he had 
never experienced anything like that during his entire life. 
For almost 3 days, he was either in the paddy wagon or in a 
stone glass, a tiny concrete cell about 80 centimeters square, 
less than 1 square meter, and above all, he was stuffed in with 
two other detainees in that tiny cell. He was allowed to use a 
bathroom once within 3 days after his arrest.
    Many of those who had been sentenced for administrative 
arrest were immediately arrested by the KGB after their release 
and taken to a KGB jail. These people were charged under the 
article of the organization of mass disturbances.
    My husband, Nikolai Khalezin, now is also charged under 
this article. When we were separated at the square, he managed 
to escape, picked up our youngest daughter who was with 
friends, and got home. Early in the morning, KGB officers tried 
to infiltrate into our house, but my husband, parents, and 
daughter stayed silent and gave no sign that anyone was there. 
KGB officers returned several times during the morning, but my 
husband managed to escape from the house with the help of our 
friends.
    What began to happen in Belarus on December 20, I would 
term a true ``witch hunt.'' Only about two dozen of political 
activists could escape from the secret service. All others were 
arrested. From the very morning, the all-out searches of the 
apartments of social activists began. Editorial offices of 
independent newspapers and Web sites were destroyed. Human 
rights defenders were detained and interrogated. Almost 
everywhere computer equipment and any information media, flash 
memory cards, video, and photo cameras, CD, DVD, external 
computer disks were confiscated, Belarusian authorities afraid 
of any witnesses.
    There were no mobile coverage at the square. There was no 
Internet. When people referred to Belarus and said that it is 
possible to have a Twitter revolution, as it was in Iran; no, 
it was not possible because Belarusian authorities bought 
Chinese filters and there was no Internet in Belarus.
    The country plunged into a deep depression, not knowing how 
to resist the total violence and absolute arbitrariness. At the 
same time, people increasingly began to show their public 
initiative to help the repressed and their families.
    We managed to flee the country. On January 3, we were 
supposed to fly out on a tour from Minsk to New York. And with 
great help--today we were referred to Michael Scanlan and the 
U.S. Embassy several times, and it appeared that this is the 
Embassy that really helped--we left the country. But the next 
day, the KGB came to apartments of our parents and they said 
where are your children. How did they manage to leave the 
country? And from all the discussion, it was absolutely obvious 
that the KGB said organization of mass disturbances is referred 
to your children. Already three times, KGB officers came to a 
house of our manager. The husband of our actress was arrested. 
They also actively searched for the president of We Remember 
Foundation, Irina Krasovskaya, who is present today at these 
amazing hearings.
    Today the number of imprisoned in the KGB jail constantly 
varies. Depriving prisoners of information and health treatment 
is a secret service tactic for pressuring them to confess to 
crimes which they did not commit. Not only do prisoners undergo 
this enormous pressure, but it extends to their relatives. On 
the day when I met, together with Irina Krasovskaya and the 
representatives of Belarusian diaspora in the United States, 
with the U.S. Secretary of State Hillary Clinton, intelligence 
officers in Minsk tried to win over the wife of Dmitry 
Bondarenko, coordinator of the European Belarus movement. She 
was offered to influence her husband so he would begin to 
cooperate with the investigation and then would receive a 
prison term much less than Sannikov. The next day after the 
meeting with the Secretary of State, apartments of my parents 
were attacked by KGB again.
    Unfortunately, today the simple desire of Belarusians to 
get rid of dictatorship is not enough. Lukashenko has created a 
huge machine of repression which has no analogs in Europe. We 
can resist it only by leaning on the help of those who are able 
to influence the last dictatorship of Europe from the outside.
    Here in America, we have amazing support of American 
artists, Steven Spielberg, Michael Douglas, Tony Kushner, Oskar 
Eustis, Catherine Coray, Leigh Jameson, Jeramie Irons, Michael 
Lawrence; many, many of them. I can enumerate for a long time 
names of those tremendous and great people who rushed to our 
aid and embarked on the protection of political prisoners.
    I have a dream that we will be able to pronounce with the 
same pride the names of American and European politicians who 
decide to help a country of 10 million people. But if any way 
politicians do their job and think only such the ways, there is 
just one political and geopolitical challenge. If there is no 
dictatorship in Belarus, it will be for the first time in the 
world history when European Continent would be free from 
dictators. What a shame if the European Union and the United 
States cannot solve this issue.
    I would like to get just a few moments of your attention. 
This is just a few moments that I need from you and pay 
attention just to the names of people who are now in the KGB 
jail, and these are just people: Aliaksandr Atroshchankau, 
Aliaksandr Arastovich, Bandarenka, Breus, Fiaduta, Fedarkevich, 
Khalip, Khamichenka, Klaskouski, Kobets, Korban, Kviatkevich, 
Likhavid, Liabedzka, Loban, Malchanau, Martsaleu, Miadzvedz, 
Mikhalevich, Novik, Niakliayeu, Palazhanka, Parfiankou, Paulau, 
Pazniak, Radzina, Sannikau, Seviarynets, Statkevich, Vazniak, 
Vinahradau. No oil, no gas, just people. This list is growing 
now.
    I wanted to bring you a portrait, but it was not allowed to 
bring it here. It is staying on the first floor. It is a 
portrait of a son of our friends, Andrei Sannikov and Irina 
Khalip. You saw his portrait today. He is only 3 years old but 
he personifies all parents. He personifies all children who are 
now without parents, and parents who are now without children. 
And could you imagine if you put yourself on the position of 
his parents, that they would see him or he would see his 
parents only when he is 18 years old. He is 3 now.
    When we talk about Belarus, let us talk about it like 
people, not as politicians or theatre makers, not as 
businessmen and geopolitical strategists, but just people. The 
American Senate is the voice of American people, and we need 
those voices of people of America to stay together with us and 
help us to fight against dictatorship.
    Our patron, Sir Tom Stoppard, who came to Belarus 
underground and met with many of those who are now in KGB and 
relatives of those whose relatives were kidnapped and killed by 
the regime said: Dictatorship is not a political problem. It is 
a moral problem. Let us think about morality in politics toward 
Belarus, as well as to other countries that stay under 
dictatorships as well. Words are not enough. It is time to act.
    Thank you so much for your time and patience.
    [The prepared statement of Ms. Koliada follows:]

                 Prepared Statement of Natalia Koliada

    Madam Chairperson, distinguished members of the committee, thank 
you for inviting me to share my experience of the political and social 
upheaval surrounding the recent fraudulent Presidential elections in my 
country, Belarus. With your permission, I would like to present my 
story.
    My name is Natalia Koliada. I am a director of the Belarus Free 
Theatre. I believe that in order to present a complete picture of what 
is happening in Belarus, I should start with a history of our theater 
itself, an independent creative company which has become a pariah in 
its own country.
                              our theater
    My husband Nikolai Khalezin and I created the theater in spring of 
2005. A month later, after a director, Vladimir Scherban, joined us, we 
were able to release the first show, ``Psychosis 4.48'' based on a play 
by British playwright Sarah Kane. Even the first performance provoked a 
squall of discontent on behalf of the power structures, and the next 
show, ``Breathing Technique in a Vacuum'' based on a play by Russian 
playwright, Natalia Moshina, led to the prohibition of the theater. In 
the first months of our existence, we could rent small clubs for the 
performances. Later, when the theater became known to intelligence 
agencies and the Presidential administration, our managers were 
visiting on average 30-40 different public spaces, offering to perform 
for free, but they were rejected every time.
    Exercising our right to freedom of expression, we began to show 
performances underground, using every opportunity. We presented them in 
the guise of private parties and birthdays in cafes or in private 
homes, and even under the guise of weddings at a farm in the forest.
    The result was that the professional theater company has become a 
pariah, and members of the troupe throughout the 6 years of the 
theater's existence experienced all possible types of repression: 
expulsion from the universities, dismissal from their job, denial of 
residency, beatings, arrests, prison time, and psychological pressure 
on members of the troupe and the audience. Three members of the group 
were imprisoned, and everyone has been arrested. One of the most 
heinous cases occurred in August 2007, when the entire troupe was 
arrested along with the audience--more than 60 people. Then the mass 
repression was avoided only through the intervention of international 
celebrities: British playwright, Sir Tom Stoppard, and Nobel Laureate, 
Harold Pinter, along with a rapid response of the leading world media.
    Pressure on the theater grew in proportion as the company became 
popular abroad. We presented performances on four continents, traveled 
more than two dozen countries on tour, receiving brilliant critique in 
the world's leading publications. But at home in Belarus, we still 
showed performances in secret: we were not allowed to register the 
theater officially, rent space, nor sell tickets. The regime continued 
to pressure not only actors and managers of the theater, but resorted 
to pressure spectators and family members of the troupe.
    In the year preceding the 2010 Presidential election, many European 
politicians were taking President Alexander Lukashenko's claims of 
liberalization seriously. We have not experienced for a single day of 
this most notorious ``liberalization'' ourselves. The pressure on the 
theater changed its forms, but it has not slackened or faltered for a 
moment, being amplified after each great success abroad. Talks on the 
liberalization and flirting with the dictator led to a wave of terror 
that began on December 19, 2010, and continuing until now.
                           december 19, 2010
    The morning of Election Day did not herald the bloody outcome, 
which occurred later in the evening. The authorities cornered about 20 
percent of voters on a preliminary vote and all bulletins of those who 
had voted before the official Election Day were enrolled in 
Lukashenko's advantage. At 4 p.m. the first exit poll data began to 
appear. Based on that information it became clear that Alexander 
Lukashenko gained no more than 32 percent of the votes whereas the 
share of the remaining eight candidates had more than 43 percent. 
Knowing the Belarusian political situation in which the overflow of the 
votes from opposition candidates to the dictator is impossible, and 
taking into account the fact that among the opposition candidates the 
majority of the votes were distributed between two leaders--Andrei 
Sannikov and Vladimir Neklyaev--it was easy to understand that the 
reality of the second round of elections would become absolutely 
obvious, in which a Democratic candidate would undoubtedly win.
    Based on the exit poll data and information from a number of 
polling stations, the indicative results of the first round of the 
Presidential elections were as follows: Alexander Lukashenko gained 33-
40 percent; Andrei Sannikov--23-25 percent. In the second round of 
voting Sannikova would receive votes from his colleagues in the 
Democratic opposition--Vladimir Neklyaev (about 12-15 percent), 
Yaroslav Romanchuk (10 percent) and other opposition candidates (about 
5-7 percent). Most likely, the realization of his imminent defeat 
prompted Lukashenko to radical actions against peaceful demonstrators 
who had gathered in that evening in the center of Minsk in order to 
hear the final figures of the results of the Presidential elections.
    By 8 p.m. at the October Square in Minsk there were about 50,000 
people. They were people of different ages belonging to different 
social groups. Many came as entire families--even with young children. 
For the first time in the last 10 years, so many people took to the 
streets. It was a peaceful demonstration--there were no aggressive or 
intoxicated people in the crowd; any provocations by dressed in plain 
clothes security officers were stopped by the protesters. On the square 
a rally with the Presidential candidates, heads of their staffs, and 
culture figures took place.
    There at the square, it became known that half an hour before the 
rally security forces attacked a group of members of the headquarters 
of a Presidential candidate, Vladimir Neklyaev. The attack was carried 
out with firearms and light stun grenades. The attackers seized a set 
of sound-amplifying equipment and took away part of the video and 
photography equipment from journalists present there. Nyaklyaev himself 
was brutally beaten, and after the attackers withdrew, he, being 
unconscious, was moved back into the candidate's headquarters.
    After the meeting ended at the square, the demonstrators marched to 
Independence Square, where the Central Election Commission was located 
at the Government Building. When about 50-60 thousand people came to 
the square the final results of the Presidential elections, announced 
by the Central Election Commission, became known. According to the 
authorities, Alexander Lukashenko had scored more than 79 percent of 
the votes.
    It was clear that the dictator would not part with his power, even 
if nobody voted for him.
    The rally at the square continued--one Presidential candidate after 
another gave a speech during which they declared their opposition to 
the fraudulent results that had been announced by the Central Election 
Commission. At some point, there was a sound of breaking glass--a few 
unknown people tried to break the glass door in the building that 
housed the Central Election Commission. Demonstrators surrounded the 
area close to the doors, and did not let anyone to approach them. 
Presidential candidate Vitali Rymashevsky, getting to the microphone, 
announced that it was a provocation of the intelligence services, but 
suddenly another group of sports-dressed young people appeared there 
and continued even more actively smashing the glass doors of the 
Government Building. Only a few days later, with the active help of 
bloggers, journalists, and, thanks to leaks from law enforcement of 
audio conversations between special security services, people managed 
to reconstruct the event completely, and with absolute certainty to 
establish that the destructions of the doors of the Government Building 
had been staged by the secret service. Today, all the relevant audio 
communications can be found publicly on the Internet.
    From the audio communications of special services it became clear 
that the breaking of glass in the door of the building was the signal 
for the use of the force against peaceful demonstrators. A few minutes 
later, after the raid leaders ordered the sweep, the area was filled 
with about 7-10 thousand troops. It consisted of different groups of 
armed men: from organized riot squads to semicriminal groups without 
any recognizable insignia, dressed in black clothes. These groups are 
part of semilegal armed forces, carrying out special assignments of the 
Presidential structures. They behaved horribly, screaming obscenities 
and furiously smashing and brutally beating the peaceful demonstrators.
    My husband and I were close, but when a company of riot police 
struck at the crowd, we became separated on different sides of armed 
men. I, along with a small group of protesters was shoved aside to a 
waiting paddy wagon, and we were pushed inside of it. We, the first few 
people, were more fortunate than others--we mostly avoid the beatings. 
Riot policemen initially only gave orders, interspersing them with foul 
language: ``Lie on the floor!'', ``Do not move!'', ``One move and I'll 
kill you!'' The gentlest treatment was the word ``animals.'' In the car 
there was absolute darkness. Gradually the paddy wagon was filled with 
the detained, and eventually 68 people were crammed inside, despite the 
fact that it is a metal shed measuring about 2 by 5 meters.
    The car started to move around the city--the moving lasted about an 
hour, then we stayed in the car for another 3 hours. There was not 
enough air, there was no water and we weren't allowed to go to the 
toilet. A few hours later after we arrived at a detention center, which 
was a jail, where political prisoners sentenced to short prison terms 
are usually taken; a few groups were convoyed to the toilet. To our 
question whether it was possible to drink somewhere, the guards 
replied: ``Drink from the toilet.'' Threats and insults rained 
incessantly on us. That evening one of the guards told us: ``Fascists 
will look like a fairy tale for you.'' It was true--it was unbearably 
difficult to stand the insults, beatings and humiliation for the young 
people, the vast majority of whom were in that situation for the first 
time in their life.
    Throughout the night more than 600 people were arrested, including 
six Presidential candidates. At the detention center they did not even 
take us to the cells. We were left standing in the hallways waiting for 
trials that were due to start in the morning. The guards continued 
psychological pressure, periodically giving the command: ``Form up a 
file,'' ``Face the wall,'' ``Place your feet shoulder-width apart.'' It 
was senseless torture of people throughout the entire night.
                           december 20, 2010
    In the morning they started to take us to the courts. They had to 
sentence more than 600 people, so all the courts of the city were 
overcrowded. Trials that were taking place one after another, sometimes 
took just a few minutes. Police officers were the witnesses, and all 
protocols were written in the same way: ``was in the square,'' shouted 
the slogans,'' ``violated the order.'' Insisting on the presence of a 
lawyer was futile. Without exception, all the trials were behind closed 
doors. Lawyers were not allowed in and even the relatives of the 
arrested could not find out where the trials on their loved ones had 
been taken place. In the most cases the sentences imposed were of two 
types--10 or 15 days of imprisonment. In some cases, mostly for young 
women with small children younger than 12 years old, they were fined 
for 30 basic units (about $400).
    In my case a judge was about to pass sentence, but asked me: ``Do 
you feel guilty?'' I replied that I did not, and then the judge turned 
to me with the words ``Anna Yegorovna . . .'' I immediately responded 
to challenge the judge, because my name is Natalia Andreevna, and not 
Anna Yegorovna. It turned out that I was tried, not only without any 
witnesses, but also based on a charge-sheet which contained someone 
else's name. The conflict began to flare up, and the judge decided that 
the best solution was to stop it, and announced the sentence--a 
penalty.
    The manager of our theater, Artem Zheleznyak, was not as lucky--he 
was sentenced to 11 days in jail after being arrested in the editorial 
office of the most influential independent socio-political Web site, 
Charter'97. He had accompanied the Web site editor in chief, Natalia 
Radina, to her office to help her with the translation of articles into 
English. Natalia was beaten so badly in the square she got a 
concussion. That night, the entire editorial staff, including Artem, 
was arrested. As he confessed to me, he had never experienced anything 
like that during his entire life. For almost 3 days he was either in a 
paddy wagon, or in ``a glass''--a tiny concrete cell about 80 
centimeters square; less than 1 square meter. And, above all, he was 
stuffed in with two other detainees in that tiny cell.
    Many of those who had been sentenced for administrative arrest were 
immediately arrested by the KGB after their release and taken to a KGB 
jail. These people were charged under the article of the organization 
of mass disturbances, the maximum penalty for which is 15 years 
imprisonment.
    My husband, Nikolai Khalezin, now is also charged under this 
article. When we were separated at the square, he managed to escape, 
picked up our youngest daughter, who was with friends, and got home. 
Early in the morning KGB officers tried to infiltrate into our house, 
but my husband, parents, and daughter stayed silent and gave no sign 
that anyone was there. KGB officers returned several times during the 
morning, but my husband managed to escape from the house.
    What began to happen in Belarus on December 20, I would term a true 
``witch hunt.'' Only about two dozens of political activists could 
escape from the secret service--all others were arrested. From the very 
morning the all-out searches of the apartments of social activists 
began, editorial offices of independent newspapers and Web sites were 
destroyed, human rights defenders were detained and interrogated. 
Almost everywhere computer equipment and any information media: flash 
memory cards, video and photo cameras, CD, DVD, external computer disks 
was confiscated.
    Mobile phone operators provided the authorities with information on 
all subscribers who were present at the center of town in the evening 
of December 19. Based on these lists, they started calling in everyone 
for questioning in the State Security Committee. Queues for questioning 
by the KGB are still there, and searches and new arrests are continued 
without interruption. Today we are talking about tens of thousands of 
people who have been questioned and who will be called for questioning 
in the nearest future.
    The country plunged into a deep depression, not knowing how to 
resist the total violence and absolute arbitrariness. At the same time, 
people increasingly began to show their public initiative to help the 
repressed and their families, disseminating information, creating new 
professional groups of influence.
                                 today
    We managed to flee the country. On January 3, we were supposed to 
fly on a tour from Minsk to New York. As it turned out, secret services 
were waiting for the troupe at the airport, but we managed to escape 
from the country by other means, but on the very next day our 
apartments were searched. The main questions they asked our parents 
were, ``Where are they?'' and ``How could they manage to leave the 
country?'' From the interrogation of our parents, it became clear that 
my husband and I were incriminated under the same article as everyone 
else who is still imprisoned in the KGB jail: ``organization of mass 
disturbances.'' Already three times KGB officers came to a house of 
Artem Zheleznyak's parents. They also actively search for the President 
of the ``We Remember Foundation,'' Irina Krasovskaya.
    Today the number of imprisoned in the KGB jail constantly varies. 
Weekly the authorities arrest new people whom they impose the same 
absurd accusations. Lawyers are not allowed to see the suspects; they 
are deprived of medical care, and denied even the slightest access to 
information. To date, the lawyers cannot get to see their clients for 
29 days.
    Depriving prisoners of information and health treatment is the 
secret service tactic for pressuring them to confess to crimes which 
they did not commit. Not only do prisoners undergo this enormous 
pressure, but it extends to their relatives. On the day when I met with 
the U.S. Secretary of State, Hillary Clinton, intelligence officers in 
Minsk tried to win over the wife of Dmitry Bondarenko, coordinator of 
the ``European Belarus'' movement. She was offered to influence her 
husband so he would ``begin to cooperate with the investigation, and 
then would receive a prison term much less than Sannikov.''
    Vladimir Khalip, father of arrested journalist, Irina Khalip, and 
father-in-law of Andrei Sannikov, suffered over the past 2 weeks three 
operations on his eyes because of the sudden drop in vision. My father, 
a professor of elocution, Andrew Koliada, now cannot practice his 
profession--because of the nervous system breakdown a spasm of the 
vocal cords occurred.
    Belarus has now entered the third era in its most difficult stage 
of life, beginning a decade ago. In 1999-2000, Lukashenko eliminated 
opposition leaders using a ``death squad.'' Then the militia under the 
command of Colonel Dmitri Pavlyuchenko kidnapped and killed opposition 
leaders--Deputy Speaker of the Parliament, Viktor Gonchar, former 
Interior Minister, Yuri Zakharenko, Anatoly Krasovski--a businessman 
who financed the democratic forces, and Gennady Karpenko--another 
Deputy Speaker of the Parliament and Head of the Congress of Democratic 
Forces also perished under mysterious circumstances.
    Then there was 2006--the year of the previous Presidential 
election, when European politics essentially denied help to the 
democratic forces of Belarus. On the eve of the election, when was put 
to the question ``Can the European Union put pressure on Lukashenko?'' 
one of Europe's politicians replied, ``Only if they start shooting in 
the streets.''
    On September 3, 2010, the journalist, Oleg Bebenin, one of the 
leaders of the electoral headquarters of Andrei Sannikov, was found 
hanged at his country cottage. Ridiculously staged suicide would be one 
of the key elements in the upcoming election campaign. The killing lead 
to an international investigation, but European politicians even then 
turned a blind eye to that death, limiting their intervention by the 
arrival of two experts to examine the documents offered by the 
Belarusian authorities.
    Unfortunately, today the simple desire of Belarusians to get rid of 
dictatorship is not enough. Lukashenko has created a huge machine of 
repression, which has no analogues in Europe. We can resist it only by 
leaning on the help of those who are able to influence the last 
dictatorship of Europe from the outside.
    Here in America we have many friends in theater. When those people 
heard about our problems, they, without even thinking twice, began to 
do everything to help Belarus: Steven Spielberg, Michael Douglas, Tony 
Kushner, Oskar Eustis, Kevin Kline, Stephen Spinella, Laurie Anderson, 
Lou Reed, Philip Seymour Hoffman, Olympia Dukakis, Jude Law, Kevin 
Spacey, Mikhail Baryshnikov, Jay Sanders, Ian McKellen . . . I can 
enumerate for a long time names of these tremendous and great people 
who rushed to our aid and embarked on the protection of political 
prisoners.
    I have a dream that we will be able to pronounce with the same 
pride the names of American and European politicians who decide to help 
a country of 10 million people that may not have oil or gas, mountains 
or a sea, but does have great people who live there.
    Danik, a son of Andrei Sannikov and Irina Khalip, is only 3 years 
old now. His parents are in KGB prison only because they wished well 
for their fellow compatriots. They may only be released when Danik is 
18 years old. It is in your power to make sure that this won't happen. 
Let's try!

    Senator Shaheen. Thank you very much, Ms. Koliada, for your 
compelling words and for your courage in being here today.
    I am going to ask Senator DeMint if he would begin the 
questioning because he has to leave.
    Senator DeMint. Thank you, Madam Chairman.
    Ms. Koliada, I have to thank you for your courage. Thanks 
for being a voice for the people of Belarus who want to live 
free, and I hope we can take your testimony and actually be of 
some help.
    Mr. Kramer, I am sure you heard the testimony and the 
suggestions from Secretary Gordon about how we can put more 
pressure on the government there in Belarus. Your 
recommendations were much tougher and much more specific in 
trying to--whether it be family members or whatever. Where is 
the difference? Do you believe--and I might ask Mr. Wollock to 
comment too because I think that is what we are trying to sort 
here is we know we have got a problem. We know that the 
government has not been responsive to requests. Again, just 
comment on whether you think we should be as harsh, or is there 
a way to pull them along without maybe pushing them away?
    Mr. Kramer. Senator DeMint, I think we cannot be harsh 
enough, frankly. That we will reimpose the sanctions on the two 
subsidiaries of Belneftkekhim is a good step, but we need to be 
looking at other state-owned enterprises where Lukashenko 
benefits personally. When we imposed a sanction in November 
2007 on Belneftekhim, 2 months later a representative of his 
administration came to the U.S. Embassy and asked what would 
the United States do if we release the political prisoners. In 
other words, we found his weak spot. We found where he keeps 
his money. We found where he is vulnerable. And the United 
States, as well as the European Union, need to continue to find 
the weak spots of Lukashenko, go after where he keeps his 
money, go after where people in his regime keep their money, 
deny them the opportunities to come to the West, extend this to 
the families. And I do think the European Union is prepared to 
take these steps.
    We need to make very clear that we will not support any 
international financial institution assistance to Belarus.
    And we should also, I would argue, stop talking about the 
possibility of reengaging with Lukashenko if he releases the 
political prisoners.
    The ball should be in his court. He is the one who knows 
what he has to do. Unfortunately, I do not think he has any 
intention of doing it unless he has no choice through pressure. 
And so I would hope that the United States, together with the 
EU, would take the toughest stand possible and impose the most 
rigid sanctions where Lukashenko really has no out but to 
release the political prisoners for starters.
    Senator DeMint. But you would agree that if we attempt to 
be harsher than the EU is willing to be, then our sanctions 
really will not mean that much.
    Mr. Kramer. It takes both sides. In 2006, when we first 
imposed the sanctions after the February 2006 election, it took 
a lot of diplomatic effort but cooperation with Europe to make 
sure that the Europeans and the United States move forward on 
sanctions together. And in fact, the EU beat us to the 
announcement of sanctions that summer, but it was very 
important to do this in coordination.
    Senator DeMint. Mr. Wollock, what do you think about that 
balance?
    Mr. Wollack. Well, first of all, I want to say, I think it 
was positive that the United States maintained a sanctions 
policy prior to the December 19 election when the Europeans 
were moving in a different direction.
    I think that there are two issues and I think you are 
correct, Senator. I think, first of all, that we have to have a 
broad sanctions policy, but it is equally as important, if not 
even more important, that this be coordinated with the 
Europeans so this is a unified approach. And that is why I 
talked a little bit about the recent elections in Cote 
d'Ivoire. If we can get the Europeans on board, we can get the 
intergovernmental organizations on board, the individual 
countries to a broad base, coordinated, and consistent 
sanctions policy, it will have, I think, a much greater impact 
on the regime than if we all go in different directions--both 
the EU and the United States and the individual countries 
within the European Union.
    Senator DeMint. Thank you, Madam Chair.
    Senator Shaheen. Thank you, Senator DeMint.
    I certainly agree with what both of you are--really, 
everybody who has testified has said about the importance of a 
coordinated effort between the United States and the EU to 
address what is happening in Belarus.
    But given our past experience, how do we avoid responding 
to the regime then, assuming we put in place some of the tough 
measures that everyone is advocating and they then release the 
political prisoners, they then appear to be moving in a more 
positive direction, so we then reduce the sanctions--how do we 
avoid having this cycle repeat itself over and over again and 
political prisoners being used as bargaining chips for whatever 
Lukashenko was trying to do? Whoever would like to respond to 
that.
    Mr. Kramer. Senator, I think it is important that 
Lukashenko not be rewarded for undoing bad things. The release 
of political prisoners is not something for which he should 
then get the lifting or suspension of sanctions. The behavior 
that he demonstrated on the 19th of December and since then is 
something that he cannot really take back. So releasing 
political prisoners would be welcome but not sufficient in my 
view for there to then, in turn, be a suspension of the 
sanctions again because you are absolutely right. This will be 
a circle where we will be right back where we started.
    And that is why, as Ken pointed out, the United States 
lifted very little in the way of sanctions in 2008 in response 
to the release of the political prisoners of that time. The EU 
suspended its visa ban. It kept its asset freeze in place. And 
the EU, therefore, does have more it can do to pressure 
Lukashenko than we do, but at the same time, we have to 
understand this is a leader, a dictatorial leader, who has 
demonstrated disdain for the West, disdain for freedom and 
human rights, and those kinds of leaders in my view do not 
deserve the benefit of the doubt.
    Senator Shaheen. You all talked a little bit about Russia's 
actions, what appeared to be a distancing between Russia and 
Belarus and now what appears to be a coming back together. Is 
there more that we should be doing to engage Russia with us in 
trying to put pressure on Belarus and Lukashenko?
    Yes, Ms. Koliada.
    Ms. Koliada. If there is engagement of Russia, then it is 
necessary to understand that Russia would never care about 
human rights. So the only thing that is possible to use is just 
to explain to Russia that it is in their geopolitical interest, 
that it is good for them to stop it because Russia has 
announced that they are main partners, the European Union and 
the United States--so how they look in front of the European 
Union and the United States. Knowing such political situation 
that they have in their own country, they need to exercise some 
steps toward changing their situation and changing Belarus' 
situation. But in the reality, we do not need Russian 
influence.
    And it is necessary for us to understand that one of the 
fears that appeared before the elections on behalf of the 
Lithuanian President who came to Belarus and who sat in some 
unofficial meetings, that it is better to keep Lukashenko in 
power because he would protect us from Russia. What a shame for 
a European leader to make such a statement.
    Belarus could protect itself, and the European Union could 
protect itself, its borders. But it is necessary to remember 
when we talk about Russia, that Russia will never be interested 
in human rights. They are only interested in their business 
profits and their geopolitical situation. But it is important 
to engage and make pressure on them.
    Senator Shaheen. Mr. Kramer.
    Mr. Kramer. I would just add, Senator, that I agree with 
everything Natalia said. I would also say that the leaders in 
Moscow are the ones who are happiest about the current 
situation. In the summer, they sent clear signals to Lukashenko 
through an anti-Lukashenko campaign, including documentaries 
that they aired on Russian TV, that they can mess with him 
anytime they want. Then a week before the election, they signed 
an energy deal with Lukashenko to help him out come the 
election.
    They also love the fact now that the West is about to apply 
sanctions on him, which means that Lukashenko essentially has 
nowhere to turn but to Moscow. From the Russian leadership's 
perspective, this is an ideal situation.
    Senator Shaheen. Mr. Wollock, did you want to add something 
to that?
    Mr. Wollack. I would just say I am not somebody that is 
against engagement policy as long as engagement is based on 
fundamental principles, and if we have a broad diplomatic 
strategy based on those principles, I think we would be willing 
to talk to anybody, including the Russians. And there have been 
situations in other countries where countries have abysmal 
records domestically but are willing to take certain actions 
outside their borders that are positive. So I would not give up 
hope completely, but I would push this very vigorously and very 
hard so the Russians understand where we stand and what 
hopefully that we would ask from them.
    Senator Shaheen. Thank you.
    Can I also get you to enumerate, if you will? You talked a 
lot about the importance of taking certain actions to help 
democratic forces in Belarus, some of the civil society groups. 
What specifically would you like to see Congress do, for 
example, to help respond to some of those recommendations?
    Mr. Wollack. Well, first of all, I think we are all 
grateful for what Secretary Gordon said in terms of increasing 
funding for Belarus. I think Congress can play a role to ensure 
that the assistance package for Belarus be robust and to 
respond to what the needs are on the ground. And the needs are 
great, particularly since events that have occurred since 
December 19. So, therefore, I think we have a responsibility to 
respond to those needs. And those needs in a way should be 
defined in large measure by the needs that are defined by the 
people on the ground and also by the recipients of the 
assistance. I think there should be a wide array of recipients 
of that assistance that includes both political and 
nonpolitical organizations, civil society, political parties, 
and they have to determine the risks that they have to take in 
terms of the assistance that they receive from the outside. But 
I think the assistance should be robust and assistance should 
include both material assistance, as well as technical 
assistance, and Congress I think can play a role in that, 
working with the administration.
    Mr. Kramer. If I could just add two things.
    Senator Shaheen. Sure.
    Mr. Kramer. I think one is to continue to shine a spotlight 
on the situation, and this hearing is a terrific example of how 
to do that. Bringing someone like Natalia to testify before the 
U.S. Senate is a wonderful thing to do to make sure that people 
do not lose focus on what is happening.
    The other I mentioned is support for the Belarus Democracy 
Reauthorization Act which I hope the Congress will move forward 
with quickly, and that, too, would send a signal of both 
support for people in civil society and the opposition but also 
a clear message to the regime in Minsk.
    Senator Shaheen. Yes, please.
    Ms. Koliada. If I can make a very short comment. It is 
wonderful to hear such numbers like $11 million and that it 
would be increased for 30 percent. But it is necessary to 
understand that there is a need in very deep analysis of the 
situation, who will receive this money, and there is a need for 
experts to stay in Belarus or it should be a person who is 
coming and going to Belarus on a constant basis because there 
is a problem of people coming and to be changed by other people 
and there is no expertise in Belarus.
    It is necessary to understand, for example--just a short 
example. Even if we talk about Belarus Free Theatre, the last 
time we received help connected to the American Government, it 
was 2 years ago and it was from German Marshal Fund and it was 
$10,000. And we have a group of 17 people.
    So it is a great need in expertise of who does what, and 
there is a need in supporting, for example, Web sites like 
Charter 97 or Nasha Niva newspaper. And some of them like 
Charter 97 is located now out of Belarus, and they need 
protection from other governments as well in order to continue 
their jobs there. And there is a need in millions of 
independent underground newspapers like it was in Poland, 
Somerstat. And it should be just distributed because there is 
just hunger on information. There is terrible hunger on 
information.
    Senator Shaheen. Thank you.
    Senator Risch.
    Senator Risch. Thank you, Senator Shaheen.
    I want to follow up on where Senator Shaheen started her 
question. It seems to me that if you put sanctions on and you 
are not willing to take them off simply because he is undoing 
what he did, there has got to be some type of a standard; that 
is, there needs to be something in place that says, OK, here 
are the sanctions and there has got to be an end game, in 
short. I do not think the sanctions should be put on without a 
clear idea of where we are going. We have done too much of that 
as far as government is concerned.
    So I would like to hear your thoughts on that. Let us set 
aside that it is an absolute given that you have got to undo 
the bad things you did. What do you have to do to get the 
sanctions off? I think that is really critical, it seems to me.
    Mr. Kramer. In December 2006, the European Union presented 
the Lukashenko government with 12 steps that it needed to take 
for an engagement policy and for real establishment of strong 
diplomatic relations. Lukashenko never paid any attention to 
those 12 steps, but the United States endorsed them at the 
time. Those 12 steps, as far as I know, are still on the table 
should he ever show any interest in following through on them.
    There have been efforts over the years, even before the 
2006 election, step-by-step, selective engagement to work with 
Lukashenko and the Belarusian Government, as well as with other 
organizations and civil society in the country, to move forward 
and try to get relations on a better track. Unfortunately, he 
has never shown interest. And the only reason the sanctions got 
suspended by the EU in 2008 is because of the pressure 
sanctions implied to force him to release political prisoners. 
And that, I think, is an example where Lukashenko only 
understands pressure, and he has shown no interest in 
liberalizing society. If he were to do that, I too would join 
with those who supported an engagement kind of policy with him.
    Mr. Wollack. I think it has been frustrating for those of 
us who have worked in the region over the years that over 
almost two decades, there have been a series of failed, flawed, 
and deeply flawed elections that have taken place in this 
region of the world. And the OSCE spends an enormous amount of 
resources doing good work to monitor those elections, and 
usually the reports of those elections can be recycled. After 
each election, the OSCE declares an election not meeting 
international standards, not meeting the country's commitments 
to the OSCE. But there are very few consequences for these 
countries holding elections that do not reflect the will of 
their people.
    In the case of Belarus, not only do you have a failed 
election, but you had brutality that took place after the poll. 
So, as one condition, I think we ought to go back and not allow 
failed elections to stand, and I think there should be a new 
election being held for President.
    I think that there are other issues, as David said, with 
regard to other conditions and freedom of assembly, free 
expression, independent media, but I think we should not just 
look to the future. The next election is for Parliament. The 
next Presidential election is 5 years from now, but I think 
before we look to the future, we ought to look at how the past 
is dealt with. And I would say redoing that election is 
something that should be on that list.
    Ms. Koliada. If I may. I mentioned that in 2006 before the 
Presidential elections, we talked with some European diplomats 
and we asked about sanctions even at that time because it was 
already too many years of Lukashenko in power and there were 
political kidnappings and murders at that time. But we got the 
reply that I told, that there will be sanctions only when 
people are killed in the streets. So there are Presidential 
candidates who are now in jail.
    I was arrested in a particular moment when I was talking to 
a British journalist, and there was this crackdown and hundreds 
of policemen arresting people and beating them. And he was 
asking me, Natalia, do you think this is the end? And I just 
started to scream at him because I cannot manage myself, and I 
said, could you imagine that you have Prime Minister elections 
in the United Kingdom and on the day of the election, people 
gather to get to know the results, and suddenly all British 
policemen are coming to the streets, they are arresting all 
candidates for Prime Minister positions, putting them in jail, 
and hundreds of people arrested. Is it the end to the U.K.?
    So this is the time when it is necessary for us to ask the 
world to start sanctions. First of all, this is the immediate 
release of all political prisoners without any negotiations 
with the dictator and organize new Presidential elections. 
There is no other way out of the situation. It is not possible 
to continue these circles. He gets new political prisoners. 
After that, he started to blackmail the European Union. The 
European Union gives him 3 million euros. He released one 
political prisoner and he continues to live for some years. And 
then it would be forever. He has sons. The youngest one is 6 
years old. So it means that there will be no end to it. So it 
is necessary to insist on immediate release of all political 
prisoners and new Presidential elections.
    Senator Risch. Thank you, Madam Chairman.
    Senator Shaheen. Thank you.
    I would like to just follow up a little bit on your 
suggestion or statement that we should require new elections, 
which I certainly would agree with and think that makes sense. 
But talk practically about how that would work. In your 
statement, Mr. Wollock, you talked about the situation in Cote 
d'Ivoire and the coordinated effort there to bring pressure on 
the current leadership, but there is still a standoff. So how 
practically do you see that working? Is that one of the things 
that we keep on our list as demands from Lukashenko, or do you 
think there is other action that could be taken in terms of 
trying to force a new election?
    Mr. Wollack. Well, ultimately he holds the cards. I do not 
know how you can force him back to an electoral process. But I 
do not think that that issue should be taken off the table. I 
think in a sense, in addition to the political prisoner 
release, that issue has to be first and foremost on the agenda. 
So this notion of impunity that you can hold elections, you can 
treat citizens in a way that violates the fundamental 
principles of international and intergovernmental organizations 
that you belong to should not be allowed to stand. I do not 
know how one forces him.
    In Cote d'Ivoire, it is slightly different since the 
international community, including the United Nations which had 
the authority to accredit the result of the election, has 
determined that Mr. Ouattara is the winner. This is a different 
situation.
    We do not know what the results of the election in Belarus 
was. The integrity of the process was so bad we do not know 
what the results of the process were. And so, therefore, the 
integrity of the elections was so flawed and so bad that it 
requires that election to be held again. So I think that is an 
issue that should be on the agenda and stay on the agenda, 
along with all the other actions that are taken.
    Senator Shaheen. Thank you.
    Mr. Kramer.
    Mr. Kramer. Senator Shaheen, I think in thinking about your 
question, I cannot help but go back to November 2004 when the 
United States and the European Union and hundreds of thousands 
of people in downtown Kiev protested against a fraudulent 
election there. And Secretary Powell went out into the press 
briefing room and said the United States cannot accept as 
legitimate these results.
    Now, I was struck and pleased that the White House 
spokesman issued a similar statement in response to the 
December 19 election in Belarus. I wish President Obama had 
said it, not the White House spokesman.
    The leadership of the United States, the leaders of the 
European Union need to take a strong stand and reinforce the 
message that you and Ken and others have spoken about, which is 
we do not recognize these results, and therefore engaging in 
the business-as-usual diplomatic relations with a government 
that is headed by a leader whom we do not recognize is hard to 
imagine. And so I think supporting the tens of thousands--it 
was not hundreds of thousands as it was in Kiev in 2004, but it 
was tens of thousands of people in Minsk who turned out to 
protest this fraudulent election and protest against this 
dictatorial leader. We have to stand with them. They face 
tremendously adverse circumstances there. But they are the ones 
we should be siding with and they are the ones who also did not 
recognize the results of this election.
    Senator Shaheen. Thank you.
    And, Ms. Koliada, I think we are all grateful for the 
courage that you and so many in the opposition have shown, your 
willingness to stand up and take on the repression. One 
question that I have for you--and you alluded to this a little 
bit in your statement--is where those who have been silent in 
Belarus are. Do we have any sense--I am sure the Lukashenko 
regime is not polling the people of Belarus. But is there any 
reason to believe that the majority of people in Belarus share 
this frustration with the repression that everyone is 
experiencing?
    Ms. Koliada. I am not sure it is an appropriate story, but 
I tell you anyway. Before the elections, 2 days before the 
elections, knowing the fact that last time in 2006 people stood 
up at the square for 4 days, and 1,500 people got arrested. At 
that time our theatre manager was arrested because she brought 
two blankets to us, and she was arrested right in her car. The 
police just stopped her car and they found two blankets. She 
stayed in jail for 7 days. She was 19 years old at that time.
    But it is not about previous elections. It is about feeling 
of people who plan to go to the square this time. We went 
together with my husband to buy thermal underwear because 
everyone thought that we need to stay for many days in order to 
defend our rights. And we were absolutely sure that there was 
enough time for us, and we thought that we will go and buy it. 
We came to a sports supermarket and we did not believe our 
eyes. It was packed by people, and there were lines of people. 
It was just one joke that, guys, we need to get underwear tents 
and we will be skiing there. And it was an amazing feeling what 
people wanted to do. All of them wanted to go and defend their 
right. And what is vitally important, that they planned to stay 
for many days in order to defend this right.
    The only thing is I could tell you that my daughter, who is 
12 years old, made a big few liters thermos of hot tea. She was 
planning to go there. And many people with who I was in jail--
they came with families, wife, husband, child--wife, husband, 
children. And it was absolutely amazing when all this force of 
people were split and wives and husbands were at different 
floors.
    And if you just go back for a second about sanctions and 
about new Presidential elections, one of the Dutch deputies of 
the Parliament said, if OSCE does not recognize the 
Presidential elections in Belarus and Aleksandr Lukashenko is 
not a legitimate President, then it means that we could 
recognize those people who were Presidential candidates as a 
legitimate government and start to appeal and refer to them as 
those who would be winners if there is a second tour.
    There were independent social exit polls done by 
independent Russian agency. Again, it is interesting that 
Lukashenko won only from 32 to 37 percent.
    There is one more point. We need to use favorite toys of 
Lukashenko. His favorite toy is ice hockey. I understand that 
it does not connect to the American Senate, but if we talk 
about this, there is a World Cup of ice hockey should take 
place in 2014 in Belarus. It is not possible for sport to be 
connected to the dictator. It is necessary for sport committees 
all over the world to start to make the statements as well.
    And it is not possible to have Martynov, who is Minister of 
Foreign Affairs, allowing him to travel or to meet with 
Senators of the U.S. Government. It is not possible even to 
start to talk to them. They should start to feel that they are 
isolated.
    Senator Shaheen. Thank you. I think the Senate recognizes 
the ability to use sports in a way that makes a statement. In 
New Hampshire, we have ice hockey and we appreciate how 
important that is. So I hear what you are saying.
    Do you have any?
    Senator Risch. No, thank you.
    Senator Shaheen. Thank you all again very much for your 
testimony. Obviously, we will continue on this committee and in 
the Senate to watch very closely what happens and to do 
everything we can to try and address the repression that you 
are experiencing. So thank you all again.
    The hearing is over.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


         Prepared Statement of Lev Margolin, Vice President of
                        United Civil Party (UCP)

    The Presidential election was held in Belarus on December 19, 2010, 
when nine opposition candidates challenged President Alexander 
Lukashenko. In the evening of the same day, tens of thousands of 
Belarusians protested on Independence Square in the capital, calling 
Presidential election a farce and accused Lukashenko of keeping the 
post-Soviet country locked in dictatorship.
    More than 700 participants of the peaceful demonstration against 
falsified election were detained and penalized with administrative 
arrest for up to 15 days. Anatoly Lebedko, the UCP's chairman, as well 
as four former Presidential candidates--Uladzimir Nyaklyayew, Alyaksey 
Mikhalevich, Andrey Sannikaw, and Mikalay Statkevich--have been charged 
for organizing mass disorder and imprisoned in the KGB pretrial 
detention centre. They might face up to 15 years of prison. KGB 
officers still summon opposition activists, media, and civil society 
representatives and conduct searches of their offices and apartments. 
UCP's offices in Minsk, Gomel, Grodno, Brest were searched too. All our 
office equipment and campaign materials were seized.
    Lukashenko's cruel actions against opposition, activists and 
journalist destroyed all our democratic efforts undertaken within the 
last 3 years to completely transform Belarus into a democratic country. 
In these circumstances, all our foreign partners must act in solidarity 
and have a common policy regarding Belarus. Lukashenko understands 
force. That is the only way to gain his attention. All possible 
political, diplomatic, and economic sanctions must be applied against 
him and other officials who acted illegally during December 19 
crackdown and afterward. I am referring here to effective sanctions 
such as those applied when releasing Alexander Kazulin from prison. We 
must isolate this regime. The position of the United States and of the 
European Union has to be a severe one. Both of them must demand the 
release of political prisoners and complete abolishment of all criminal 
charges, instead of a simple change of preventive measures for those 
imprisoned. Second, there is a need to start building the opposition 
parties through providing them with necessary equipment and other 
resources. Third, we need to support independent media. Belarusian 
state media continues to provide biased information; many of 
Belarusians still do not know what happened in the evening of December 
19. We must use all available resources to tell people the truth about 
the Presidential campaign, Election Day, December 19 events and post 
election situation. One million DVDs--that should be our answer to the 
false propaganda. We must end the terror in this country. We are ready 
to consolidate with each other and fight. We want a democratic Belarus.
                                 ______
                                 

    Prepared Statement of Yury Lavrentiev and Oleg Korban, ``Youth 
                 Democrats,'' United Civil Party (UCP)

    While taking office as President of the Republic of Belarus, 
Lukashenko solemnly sweared to serve the people of the Republic of 
Belarus faithfully, respect and protect their rights and liberties, and 
obey the Constitution of the Republic of Belarus. None of these 
happened during Lukashenko's regime. The actions that the Government of 
Belarus has taken to undermine the democratic forces and use of force 
against political activists, civil society representatives and 
journalists can not be accepted or tolerated anymore. Lukashenka has 
once and for all shown his true colors, a dictator for whom there must 
be no longer a place in Europe. The events of December 19, the violent 
treatment against demonstrators and the repressions against opposition 
activists every day since then, have put an abrupt end to the growth of 
our UCP party, and opposition in general.
    Even so, we have the will and desire to continue the fight against 
Lukashenko's regime. We must continue this work or our country will 
never change. We currently do not have the resources to do that 
however. This is where we need the help of the U.S. Government. First, 
we need immediate direct party support to replace the equipment which 
has been confiscated in all our offices. Second, we need resources to 
run information and issue campaigns leading up to the parliamentary 
elections scheduled in 2012 such as the ability to travel to meet with 
voters, conduct Democratic Party meetings and to print campaign 
materials in an effort to get our word out and fight the regime 
hegemony in the media sphere. Third, we also need continued training 
from our partners like IRI and NDI--who provide valuable transfer of 
political skills and knowledge, expert consultations and strategy. 
Last, but not least, we need strong USA diplomatic support which sends 
an unmistakable message to Lukashenka that such actions and treatment 
against his own citizens are not tolerable, and ideally will provide us 
with the space necessary to continue working with our citizens inside 
Belarus. We know, America is with us, we are not forgotten.
                                 ______
                                 

   Prepared Statement of Dzianis Sadouski, the Belarusian Christian 
                         Democracy Party (BCD)

    In the evening of December 19, tens of thousands of Belarusians 
protested against Lukashenko's regime and falsified election. People 
gathered with peaceful intentions to demonstrate solidarity in their 
desire to live free. The violent manner in which the protest was put 
down displayed that the authorities had planned and intended to 
exterminate the existing opposition as much as possible. After the 
brutal crackdown, the BCD Party is in a very difficult situation. BCD's 
candidate to Presidential election--Vital Rymasheuski is under house 
arrest. Pavel Sieviarynets--BCD's cochair and campaign manager--is in 
KGB pretrial prison. Both of them, as well as 20 other party activists 
are accused of organizing mass riots and face up to 15 years of prison. 
Many other party activists faced 10 to 15 days of administrative 
arrest, during which they was maltreated by police and KGB forces. They 
were also denied access to their lawyers and families. The following 
weeks after the crackdown, the BCD's headquarter and regional offices 
were searched and raided by KGB officers. Nine computers, three 
laptops, six printers, a camera and a copy machine were confiscated. 
BCD's party members and activists continue to be interrogated and 
arrested. Their apartments and repeatedly searched.
    The BCD Party is not willing to give up. We are ready to continue 
our fight toward a democratic Belarus. We need a strong cooperation and 
support of the United States of America and of the European Union. 
Together, we need to isolate the regime, start building democratic 
opposition in Belarus from scratch, provide material assistance through 
office equipment and informational campaigns, and support independent 
media. The United States and the European Union must call for 
unconditional release of all political prisoners. Those who are still 
in jail, as well as their families must be provided with material, 
legal, and psychological assistance.

                                  <all>

</pre></body></html>
